                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                    Inspection of Embassy Nairobi, Kenya

                                            Report Number ISP-I-12-38A, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                              Table of Contents
Key Judgments                                                                         1
Context                                                                               3
Executive Direction                                                                   4
  Coordination with the Somalia Unit                                                  5
  Morale                                                                              6
  Leadership                                                                          7
  First- and Second-Tour Program                                                      7
Policy and Program Implementation                                                     8
  Political Affairs                                                                   8
  Economic Affairs                                                                  10
  U.S. Permanent Mission to the UN Environment Programme and the UN Human Settlements
  Programme                                                                         11
  President’s Emergency Plan for AIDS Relief                                        12
  Foreign Assistance                                                                14
  Law Enforcement                                                                   15
  Public Diplomacy                                                                  16
  Innovative Practice: Rotating Book and Video Collection                           19
  Consular Affairs                                                                  21
Resource Management                                                                 27
  Management Overview                                                               28
  Real Property                                                                     30
  General Services Office                                                           31
  Facilities and Safety, Health, and Environmental Management                       35
  Human Resources                                                                   36
  Equal Employment Opportunity                                                      41
  Financial Management                                                              42
  Information Management                                                            43
Quality of Life                                                                     46
  Community Liaison Office                                                          46
  Health Unit                                                                       46
  Overseas Schools                                                                  47
  Commissary and Recreation Association                                             47
Management Controls                                                                 48
  Official Residence                                                                48
  Representation                                                                    49
  Gifts                                                                             49
  Consular Management Controls                                                      49
List of Recommendations                                                             51
List of Informal Recommendations                                                    57
Principal Officials                                                                 61
Abbreviations                                                                       62




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   The Ambassador has lost the respect and confidence of the staff to lead the mission. Of
     more than 80 chiefs of mission inspected in recent cycles, the Ambassador ranked last for
     interpersonal relations, next to last on both managerial skill and attention to morale, and
     third from last in his overall scores from surveys of mission members. The inspectors
     found no reason to question these assessments; the Ambassador’s leadership to date has
     been divisive and ineffective.

 •   The Ambassador has damaged the cohesion of Embassy Nairobi’s country team by
     underscoring differences between offices working directly with Kenya and those with
     regional responsibilities. Country team members, particularly those from other agencies,
     relied on the recently departed deputy chief of mission to maintain a sense of common
     purpose at Embassy Nairobi. Unless corrected there is a risk that the country team will
     become dysfunctional. The Ambassador needs to broaden his understanding of why
     various agencies are part of his mission, cease avoiding contact with them, and work with
     the assistance of a senior Department of State (Department) official and the next deputy
     chief of mission to restore country team harmony.

 •   The Ambassador’s efforts to develop and focus the mission’s work around what he calls
     “mission essential tasks” have consumed considerable staff time and produced documents
     of unclear status and almost no value to the Department in approving priorities and
     assigning resources. His efforts have also created confusion about the relevance of the
     embassy’s annual Mission Resource Request (MRR). The Office of Inspector General
     (OIG) team agreed with embassy staff that the mission essential task process added no
     real value to the management of the embassy.

 •   The Ambassador’s greatest weakness is his reluctance to accept clear-cut U.S.
     Government decisions. He made clear his disagreement with Washington policy
     decisions and directives concerning the safe-havening in Nairobi of families of
     Department employees who volunteered to serve in extreme hardship posts; the creation
     of a freestanding Somalia Unit; and the nonuse of commercial email for official
     government business, including Sensitive But Unclassified information. Notwithstanding
     his talk about the importance of mission staff doing the right thing, the Ambassador by
     deed or word has encouraged it to do the opposite.

 •   The Ambassador does not read classified front channel messages and has not established
     a system to have his staff screen incoming cables relevant to Kenya and U.S. interests in
     the region.

 •   The Ambassador’s initiative to redirect programming for nearly $550 million in U.S.
     health assistance, while well intentioned, has proven disruptive and created confusion
     about its relationship to existing programs. He announced to the Kenyans the
     establishment of a new unfunded program, called Let’s Live, with the unrealistic aim of
     reducing by 50 percent in 1 year Kenya’s premature mortality rates for infants, mothers,
     and noncommunicable diseases.
                                        1
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



   •   The embassy needs to focus the political section’s reporting on the forthcoming March
       2013 elections and should draw from a 1-year strategy recently approved by Washington,
       which includes a plan to engage the Kenyan public and authorities to prevent and
       mitigate ethnic-political conflict.

   •   The respective responsibilities of Embassy Nairobi and the Somalia Unit are clear in
       principle, but in practice the Ambassador has set a tone that discourages collaboration
       between the embassy and the Somalia Unit.

   •   The Department should consider extending assignments to Nairobi from 2 to 3 years,
       which would be in line with the large majority of other agency assignments to Nairobi,
       achieve cost savings of more than $5 million annually, and enhance productivity and
       effectiveness.

   •   Embassy Nairobi’s public diplomacy efforts would be strengthened if there were better
       internal communication and coordination among agencies to publicize U.S. assistance
       efforts in Kenya. The Ambassador should be a more integral part of the mission’s public
       affairs strategy and activities.

   •   The consular section handles a complex workload, involving multiple countries and
       nationalities, in a professional manner. Consular management needs to address serious
       internal communication (b) (5)

   •   Despite rapid mission growth the embassy’s management section functions well. This is
       the third consecutive report in which OIG recommends replacing the substandard
       warehouse. The warehouse facilities constitute the greatest management control
       vulnerability and should be replaced quickly.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between April 9 and May 1, 2012, and in Nairobi,
Kisumu, and Kericho, Kenya, between May 2 and 30, 2012. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
         A country of some 40 million people, Kenya is situated on the Horn of Africa, bordering
the Indian Ocean, Somalia, Ethiopia, South Sudan, Uganda, and Tanzania. The World Bank
estimated Kenya’s per capita income at $810 in 2010. About 85 percent of the adult population is
literate.

         In the wake of ethnic violence after the flawed 2007 elections, the country embarked on
reform of the constitution, representing the most significant change in the political system since
independence from Great Britain in 1964. In 2010, through a peaceful referendum, Kenyans
approved a new constitution aimed at diminishing ethnic divisions and combating corruption.
The new constitution strengthened executive and legislative checks and balances, established
judicial independence, and devolved power to newly established county governments. Kenya has
still not enacted some of the 50 pieces of implementing legislation. As a result, constitutional
reform is incomplete and there is a risk of renewed ethnic conflict in the run-up to the March
2013 elections. Against the background of a fragile reform process, the International Criminal
Court has indicted four Kenyan politicians, including two presidential candidates and two former
ministers, for crimes against humanity in connection with post-election violence in 2007.

        Kenya’s geographic location, its role as a regional transportation hub, and its limited
capacity to secure its borders, make it vulnerable to transnational crime, terrorism, and
humanitarian pressures. The country hosts more than half a million refugees (mostly Somalis)
and a quarter million internally displaced persons. Several terrorist kidnappings and attacks,
some linked to al-Shabaab in Somalia, claimed lives of foreigners and Kenyans from 2011-2012.
A U.S. goal is a well-governed, prosperous Kenya that plays a stabilizing role in the region. The
United States has supported Kenyan efforts to overcome a culture of corruption and impunity
that hinders its economic development and to tackle regional security, counterterrorism, and
humanitarian challenges. The United States will provide about $660 million in foreign assistance
to Kenya in 2012. Bilateral trade was about $845 million in 2011. Kenya participates in the
President’s initiatives on Global Food Security, Global Climate Change, and Global Health and
has the world’s second largest President’s Emergency Plan for AIDS Relief (PEPFAR) program
(after South Africa). In addition to its bilateral functions, the embassy serves as a regional
platform for several agencies and offices and hosts the Somalia Unit, which manages assistance
to that country, as well as the U.S. mission to two Nairobi-based UN organizations: UN
Environment Programme (UNEP) and the UN Human Settlements Programme (UN-HABITAT).
Nairobi is a critical threat post for crime and terrorism.

        Embassy Nairobi is the largest U.S. embassy in Africa with a staff of more than 1,300
among 19 federal agency offices, including more than 400 U.S. direct hires. Administrative
support staffing has lagged behind mission growth of 40 percent over the past 5 years, yet
administrative support for the mission generally functions well. The OIG team focused attention
on collaboration between the Somalia Unit and the embassy, management controls, cost savings,
administrative support, and the adequacy of the warehouse and facility workshop space.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Executive Direction
         Executive direction at Embassy Nairobi has been troubled since the arrival of the current
Ambassador. Under the leadership of a competent deputy chief of mission, the mission produced
an excellent FY 2013 Mission Strategic and Resource Plan 1 in early 2011 in a process that
brought all elements of this complex embassy together in a series of discussions. The FY 2014
MRR contains clear mission goals, objectives, and concrete performance indicators; however, it
has been undermined by the Ambassador’s insistence that the goal papers be recast as “mission
essential tasks,” which vary greatly in format and length and essentially include parallel
objectives and performance indicators. Although there was no change in mission goals, the
mission essential tasks added no real value and consumed a large amount of staff time on what
are still incomplete tasks. It is also unclear whether this series of documents was meant to
replace the MRR as the principal way to manage the embassy.

Recommendation 1: Embassy Nairobi, in coordination with the Bureau of African Affairs,
should determine the status of the mission essential task exercise relative to the Department-
mandated Mission Resource Request. (Action: Embassy Nairobi, in coordination with AF)

        The task of creating a sense of common purpose at Embassy Nairobi has been further
sapped by the Ambassador’s insistence on defining and breaking down the mission into four
separate groups: Department sections and offices, non-Department offices with a Kenya focus,
regional organizations and offices, and nonreporting units (only the Somalia Unit is listed in this
category). Whatever the goal, the exercise has fostered a sense of exclusion among the latter two,
and in some instances the latter three, groups. This sense has been strengthened by the
Ambassador’s reduction of country team meetings from weekly to biweekly and his ongoing
unwillingness to meet agency heads who want to brief him on their programs. After his first year
at the embassy, several have still not been given time on his calendar to explain their programs
and have stopped asking. Like many multiagency missions, Embassy Nairobi is not easy to
manage; the Ambassador has made the task much harder by compounding its complexity.

        Yet, Embassy Nairobi has functioned effectively, in a sense operating below the
Ambassador’s radar and with the coordination of the deputy chief of mission who departed
during the inspection. The senior staff meetings observed during the inspection were collegial
and produced considerable dialogue and coordination, but they tended to be dominated by the
Ambassador whose extensive comments ranged from the significant to the trivial. Many embassy
staff members told the OIG team about other meetings that featured scathing criticism from and
humiliating treatment by the Ambassador directed at senior staff. Interviews with agency heads
and senior staff indicate that most try to manage their attendance at ambassadorial meetings to
minimize any attention he might focus on them. His score as a manager in the relevant inspection
questionnaire ranked him 83rd among the last 84 inspected chiefs of mission.



1
  In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The MRR (3-year strategic plans, with shorter annual resource requests) replaced the Mission
Strategic and Resource Plan beginning with the FY 2014 budget cycle.

                                               4
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        A careful review of the Ambassador’s calendar covering his year in Nairobi reveals him
as essentially focused on internal embassy operations. He tends to spend most mornings in the
office, often in scheduled group meetings, and most afternoons working at home. He is rarely
available to consult personally on evolving issues with senior staff, some of whom also tried
unsuccessfully over a period of many months to schedule a time to brief him on plans and
activities. In his first year in Kenya he has met only between a third and a half of the prominent
Kenyans the mission recommended he see in his first 100 days in country. Several of those he
met subsequently conveyed a message of complaint to the embassy about the Ambassador’s
patronizing tone; ( b) (5)


       There have been few reporting messages on the Ambassador’s limited number of
meetings with Kenyan officials. His contacts with the press have been similarly limited and
noncontroversial.

        The Ambassador’s representational events have been limited and funds focused on events
for the foreign diplomatic community. The Ambassador told the OIG team that he made a
conscious decision to adopt a low public profile and to be less critical of the Kenyan Government
than his predecessor. (b) (5)
                                                               His reluctance to speak out on key
issues like corruption, or to engage senior Kenyan leaders on little more than voting mechanics
in the run-up to what will be a major election, indicates uninspired and uninvolved leadership
during a critical period. (b) (5)


        The OIG team observed that the Ambassador does not read classified front channel
messages. No one in the mission, (b) (5)
                    screens incoming cables for the Ambassador relevant to Kenyan and U.S.
interests in the region. The OIG team also observed that the Ambassador very infrequently logs
onto his classified account, which would allow him to read cables and classified emails.

Recommendation 2: Embassy Nairobi should implement a system for the daily screening of
classified front channel messages, including action items and messages of relevance to Kenyan
and U.S. interests in the region, and provide these to the Ambassador. (Action: Embassy
Nairobi)

Coordination with the Somalia Unit

        The respective responsibilities of Embassy Nairobi and the Somalia Unit are clear in
principle, but in practice the Ambassador has set a tone that discourages collaboration between
some elements of the embassy and the Somalia Unit. Consequently the embassy does not
adequately engage with the Somalia Unit by sharing information and coordinating reports. The
embassy and the Somalia Unit have been unnecessarily stovepiped. As a consequence, reporting
to Washington is occasionally uneven. During the inspection, the Ambassador invited the
Somalia Unit to begin attending the Nairobi country team meeting for the first time, which the
OIG team encouraged. The uncompromising application of the otherwise reasonable principle of
clear chain of command is harming U.S. interests. Collaboration between the embassy and the
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Somalia Unit does not present any unusual difficulties that could not be overcome by putting
U.S. strategic goals above parochial bureaucratic interests.

Recommendation 3: Embassy Nairobi, in coordination with the Somalia Unit and the Bureau of
African Affairs, should convene a working group on Kenyan engagement and interests in
Somalia that would include representatives of the Somalia Unit and appropriate elements of
Embassy Nairobi, including the Defense attaché office, and would focus on enhancing
collaborative activities between the two missions. (Action: Embassy Nairobi, in coordination
with the Somalia Unit and AF)

Morale

        Overall morale among U.S. direct-hire employees in Nairobi is slightly below that for
recently inspected missions. High threat and crime levels no doubt weigh on morale, but the staff
senses that its work is important and leadership has been strong below the level of the
Ambassador. In the inspection questionnaires provided to OIG, the Ambassador’s score for
attention to morale is the second lowest of more than 80 recently inspected chiefs of mission, and
his score on interpersonal relations is the lowest. (Personal questionnaires are distributed to all
Department U.S. direct-hire employees and also to the heads of other agencies representated in
the mission. The embassy response rate was approximately 72 percent, which is higher than
average.) Furthermore, his refusal to accept fully the Department’s decisions on establishing an
independent Somalia Unit, on safe havening in Nairobi of families of Foreign Service officers
working in extreme hardship posts, and on the nonuse of commercial email for official
government business, except in emergencies, is widely known and a source of confusion and
discouragement within the embassy community. These issues are further discussed in this report.

        Based on questionnaire responses, locally employed (LE) staff morale appears to be good
at Embassy Nairobi. The LE staff committee reports that the U.S. Government wage freeze has
come at a time of high inflation in Kenya. Salaries are losing competitiveness with other
employers, and the committee thinks senior LE staff are leaving for other opportunities. Both of
the full-time LE staff members in the protocol section, who worked directly for the embassy
front office, resigned this year because they found themselves unable to work effectively with
the Ambassador or to implement his redefinition of the responsibilities of the protocol section.
Without any changes to their positions descriptions, the Ambassador charged the protocol
section’s LE staff with oversight of the mission’s public outreach and community relations, in
addition to their traditional duties of organizing representational events, arranging meetings with
Kenyan officials, and handling VIP visits. The protocol section was not staffed for these extra
tasks, but the Ambassador was insistent and suggested that another 50 positions could be
established if needed to fulfill his vision. The need for more regular communication between the
LE staff committee and mission management is discussed further on in this report.

         The Ambassador recently instituted a weekly morning coffee open to embassy staff. At
his first such coffee, at which only LE staff were present with one exception, the OIG team
observed the Ambassador promise to fix a variety of concerns brought to his attention without
first consulting the management section or the LE staff committee. While such informal sessions
could provide the Ambassador with insights into the thinking and mood of staff, it is not an
appropriate replacement for regular properly staffed meetings for making decisions.
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Leadership

        The Ambassador’s leadership example has negatively affected mission staff perceptions
of his role as Chief of Mission and raised questions about his objectivity. He has willfully
disregarded Department regulations on the use of commercial email for official government
business, including a front channel instruction from the Assistant Secretary for Diplomatic
Security against such practice, which he asserted to the OIG team that he had not seen. (This
topic is addressed later in the report.)

        Assessing mission morale to be low, the Ambassador designed and deployed his own
climate survey of mission personnel. When the results pointed to him as the cause, he told
embassy employees that senior officers had done a bad job of explaining his objectives. He
subsequently sought—but did not obtain—access to individual survey responses that would have
violated the anonymity of the respondents.

        During the inspection, the Ambassador was in the process of altering a U.S. memorial
monument to the victims of the 1998 embassy bombing without Department authorization,
contrary to restrictions on the use of government funds. The OIG team heard from mission staff
of many instances in which the Ambassador repeatedly made clear his disagreement with
Washington policy decisions and directives . Notwithstanding his talk about the importance of
mission staff doing the right thing, the Ambassador by deed or word has often encouraged staff
to do the opposite.

First- and Second-Tour Program

        On the deputy chief of mission’s arrival, he found that the program for first- and second-
tour (FAST) officers was dormant. He met with the group, whose numbers usually range
between 40 and 50 at this large mission, and with their participation put together an active
program of meetings, social events, and training opportunities that FAST officers praised highly
in meetings with the inspectors. The group meets once a month and the task of FAST coordinator
rotates regularly among the group, which includes representatives from all agencies in the
mission, including a large U.S. Agency for International Development (USAID) contingent. The
deputy chief of mission wrote reviewing statements for FAST generalist officers and delegated
this responsibility for specialist officers due to the large number of FAST officers in the mission.




                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Affairs

        The political section staff has extensive contacts among senior Kenyan civil servants,
politicians, and civil society organizations. Officers have regional assignments within Kenya and
travel to report and speak at events. The understanding gained from regional travel has assisted
the section in its analysis of Kenya’s national politics. Political section staff also consult
regularly with USAID officers who manage democracy, governance, and civil society projects
throughout Kenya. The political section includes a refugee coordinator and counterterrorism
coordinator, both of whom have regional responsibilities within sub-Saharan Africa and operate
with considerable autonomy.

       Reporting and Advocacy

        The section’s reporting is generally well regarded by Washington consumers, although
the section’s analysis is occasionally ambiguous. The OIG team counseled the section to express
its assessments more definitively.

        Reporting on implementation of the 2010 constitution and on the upcoming elections has
identified risks, progress, and setbacks. Reporting is often multisourced or based on contacts
with individuals who hold key positions. The section has produced useful, relevant reporting on
the devolution of powers to local government, the domestic implications of Kenya’s incursion
into Somalia, the government plans for managing indictments by the International Criminal
Court against several prominent Kenyans, and its assessments of humanitarian and security
conditions in the Dadaab refugee camps. The political and economic sections use their weekly
unclassified report, Kenya Klips, as a consolidated vehicle to update Washington on breaking
events.

        In late 2011, the Ambassador directed the political section to increase efforts to develop
contacts and to spend less time reporting. At the same time, the section’s leadership provided
staff with conflicting advice on reporting. The Bureau of African Affairs, however, made clear
its expectations for the section to actively report on Kenyan developments, and over the 6
months prior to the inspection, political reporting expanded as a result.

        Embassy Nairobi’s top goal in its FY 2014 MRR is consolidation of Kenya’s
constitutional reforms. At stake are Kenya’s prospects as a well-governed state, with
consequences for regional stability and security. The political section’s reporting plan needs
further elaboration to support the mission’s MRR goals. The plan identifies broad thematic areas
but does not provide a timetable or specify report topics. In light of past differences between
Washington and the embassy over reporting, an agreed plan would establish a common
understanding of prospective coverage in the critical period leading up to the elections. Since the
section engages in little advocacy unless instructed by Washington, a reporting plan can also
serve as a framework for discussion, between the Embassy and Washington, on how to articulate
and advance U.S. positions.


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        In May 2012, an interagency team from the Bureau of Conflict and Stabilization
Operations and USAID’s Bureau of Democracy, Conflict, and Humanitarian Assistance traveled
to Nairobi and prepared a detailed plan to support Kenya’s elections, advance reforms, and
prevent and mitigate conflict. The plan, endorsed by the embassy and the Department, offers a
useful reference for expanded reporting and for engaging the Kenyan Government.

Recommendation 4: Embassy Nairobi, in coordination with the Bureau of African Affairs,
should consult with Washington agencies to develop a political reporting plan that contains
specific reports, deadlines, and individual staff responsibilities. (Action: Embassy Nairobi, in
coordination with AF)

       Leahy Vetting

        Leahy vetting is the process by which the Department vets foreign security forces to
ensure they have not committed gross violations of human rights as a condition for receiving
U.S. training. The political section office management specialist coordinates Leahy vetting in
Embassy Nairobi. She received training to use the International Vetting and Security Tracking
system, the Department’s database for Leahy vetting.

         The OIG team identified two weaknesses in Embassy Nairobi’s Leahy vetting process.
First, the section only checks names against the 2008 Kenya National Commission on Human
Rights report on ethnic violence following the 2007 election. There is no process for collecting
and updating information on human rights abuses. The Department’s guidance in 9 FAM 40.213
N5 does not specify how to conduct internal checks, but reliance on a 2008 report is inadequate.
Second, there is no reporting mechanism to verify that individuals who are vetted and cleared are
the same persons who receive training. About 2 years ago, some Kenyan Army trainees were not
vetted because they were substitutes.

Recommendation 5: Embassy Nairobi should, in coordination with the Bureau of Democracy,
Human Rights, and Labor, implement Leahy vetting procedures that meet the Department’s
requirements. (Action: Embassy Nairobi, in coordination with DRL)

       Political-Military Affairs

         The section’s mid-level political-military officer chairs the embassy’s executive steering
group, which vets proposals for civil affairs projects from the U.S. Africa Command’s Combined
Joint Task Force for the Horn of Africa (CJTF-HOA). After vetting the proposals, the group
does not receive information on what projects are actually carried out or after action reports.
Without a reporting mechanism, the embassy is not fully informed of CJTF-HOA civil affairs
activities in Kenya and is not positioned to make decisions on how to focus civil affairs projects.

       Informal Recommendation 1: Embassy Nairobi should request that the U.S. Africa
       Command’s Combined Joint Task Force for the Horn of Africa provide after action
       reports on its civil affairs projects in Kenya.

       Satisfying Washington’s interest in engaging Kenya on its military presence in Somalia
under an African Union and UN Security Council mandate requires better communication
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

between the political section and the Defense attaché office, as well as with the Somalia Unit.
The turnover of both the Defense attaché and political counselor this summer offers an
opportunity to improve communication and coordination.

        The political-military officer (position 10-036002) is language designated for Kiswahili
at the 3/3 level. The Department waived language training for the incumbent, and the embassy
has attempted in the past to remove the language designation. The position’s principal
responsibilities entail maintaining relationships with English-speaking Kenyan authorities in
Nairobi, and local language proficiency is not essential.

Recommendation 6: The Bureau of Human Resources, in coordination with Embassy Nairobi,
should eliminate the Kiswahili language requirement for the political-military officer position.
(Action: DGHR, in coordination with Embassy Nairobi)

       Responsiveness to Washington

       In discussions with the OIG team, most Washington clients credited the section for its
timely and generally thorough responses to requests for information. There were exceptions,
however, when requests for information languished or the section’s response was not adequately
informed. The OIG team counseled the section on the importance of providing a uniformly high
standard of service to Washington clients.

Economic Affairs

        Embassy Nairobi’s economic section is well led, motivated, and collegial. It includes
three first-tour employees. Staff have productive relations with other sections of the embassy,
with U.S. and Kenyan business representatives, and with Washington officials. The section uses
public diplomacy creatively to advance U.S. interests in protecting intellectual property and
combating money laundering. It also plays an important role within broader embassy activities
on civil aviation and food security. The economic counselor serves as the African region’s sole
participant on the Bureau of Economic and Business Affairs Business Advisory Council, which
advises on how to meet the goals of the President’s National Export Initiative.

       Trade Promotion

        The embassy exemplifies a collaborative and proactive commitment to promoting
bilateral trade in general and U.S. exports in particular. U.S. exports totaled $465 million in
2011, up 24 percent over 2010. During the first quarter of 2012, the embassy organized or
participated in 32 commercial outreach events across Kenya. The economic section has
conducted a public diplomacy campaign against counterfeiting in several Kenyan cities. The
Foreign Commercial Service hosted, with the economic section’s assistance, several roundtable
events organized by sector (e.g., information and communications technology) with U.S. and
Kenyan business representatives, government officials, and civil society organizations. This is a
well-conceived format to build relationships and to stay abreast of industry trends and the policy
environment. It reflects the excellent relationship between the economic section and the Foreign
Commercial Service. The economic section chairs the embassy’s interagency aviation group,

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

which aims to help Kenya achieve security and safety standards that will enable nonstop flights
between the U.S. and Kenya.

       The Ambassador has recently given increased attention to promoting trade. He
successfully advocated for the sale of U.S. aircraft engines to Kenya, hosts receptions for
commercial delegations, and speaks to business groups, such as at a seminar for Kenyan women
entrepreneurs on U.S. market access opportunities under the African Growth and Opportunity
Act.

       Economic Reporting

        Clear exposition and interpretation of issues, as well as relevance to private sector and
U.S. commercial interests, characterize the economic section’s reporting. The section submits
most of its reports on news items through the weekly Kenya Klips series in collaboration with
the political section. Analytical reports (including mandated reports) cover a range of
macroeconomic, corruption, financial crimes, trade policy, and sectoral issues. Recent examples
include reports on Kenyan civil aviation, outlook for tourism, setbacks in tackling corruption, the
energy sector, and African Growth and Opportunity Act eligibility.

         The section’s reporting plan for 2012 identifies more than 40 thematic areas for coverage
but is more aspirational than realistic. With a few exceptions, the plan does not distinguish
between issues that the section will cover on a continuing basis and those that will be the subject
of specific reports. A plan that includes specific reports with deadlines would clarify individual
staff responsibilities and better align topics with mission goals.

       Informal Recommendation 2: Embassy Nairobi should revise its economic reporting
       plan to include specific reports, deadlines, and individual staff responsibilities.

       Regional Labor Officer Position

        The regional labor officer (position 20-007004) also serves as the economic section’s
informal deputy chief. The position, however, has no travel funds. Washington has not specified
work requirements for regional labor duties or even designated the countries for which the
position is responsible. In practice, the portfolio covers economic and labor functions for Kenya.

Recommendation 7: The Bureau of Human Resources, in coordination with the Bureau of
Democracy, Human Rights, and Labor, the Bureau of African Affairs, and Embassy Nairobi,
should reclassify the labor officer position as an economic-labor officer position without the
regional designation. (Action: DGHR, in coordination with DRL, AF, and Embassy Nairobi)

U.S. Permanent Mission to the UN Environment Programme and the UN Human
Settlements Programme

        A small staff of four, housed in Embassy Nairobi and headed by a mid-level officer who
serves as permanent representative, manages U.S. representation to UNEP and UN-HABITAT.
The office effectively constitutes an independent mission that reports to the Bureau of
International Organization Affairs.
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        UNEP provides support for environmental programs in developing countries and serves
as a forum for international negotiations and secretariat for numerous multilateral environmental
agreements. UN-HABITAT has a mandate to promote sustainable urban areas that have access to
potable water, sanitation, and other services; its activities include assistance to displaced persons
in Afghanistan, Iraq, and Pakistan. The United States contributes about $12 million per year to
UNEP and $2 million in core funding to UN-HABITAT.

       Washington customers are pleased with the office’s reporting, representation, and visitor
support. Last year, the office succeeded in negotiating a decision, approved by the UNEP
governing council, to control staff costs. The U.S. permanent representative chairs an ad hoc
committee of his counterparts from other delegations and UN-HABITAT secretariat staff to lead
the organization’s strategic planning. Mission staff members work well together. The permanent
representative effectively mentors the two FAST officers.

         The Department established one of the FAST positions in 2010 in the embassy’s UNEP
office to provide early career experience in multilateral affairs for the benefit of the officer and
the Foreign Service. The incumbent is the first officer assigned to the position. Her tour of duty
ends in November 2012. The narrow range of issues and simple governance structures of UNEP
and UN-HABITAT, compared with UN agencies in New York, Geneva, and Vienna, limit the
utility of a multilateral affairs training assignment in Nairobi. Giving the FAST officer the
opportunity to work with other Nairobi-based UN operational agencies would enhance the
training value of the assignment.

        Several countries’ resident delegations to UNEP and UN-HABITAT are responsible for
relations with Somalia. Both the UN Political Office for Somalia and the UN Support Office for
the African Union Mission in Somalia, as well as the UN Children’s Fund office for its Somalia
program, are based in Nairobi. (The Africa Union Mission in Somalia is a peacekeeping
mission.) The Somalia Unit, which is located in the embassy, works with both the UN Political
Office for Somalia and the African Union Mission in Somalia in support of the political
transition to a constitutional government in Somalia. A rotation into the Somalia Unit in
Embassy Nairobi would expose the FAST officer to these UN organizations that support U.S.
security interests in the region and acquaint the officer with a wider range of UN activities.

Recommendation 8: Embassy Nairobi, in coordination with the Somalia Unit, should seek the
necessary approvals from the Bureaus of Human Resources, International Organization Affairs,
and African Affairs, for the next officer assigned to position 92-001552 to rotate into the Somalia
Unit during his or her assignment. (Action: Embassy Nairobi, in coordination with the Somalia
Unit)

President’s Emergency Plan for AIDS Relief

        PEPFAR in Kenya is a well-established program that is having a substantial impact.
Funded at an annual rate of about $500 million, it is the world’s second largest PEPFAR
program. PEPFAR provides antiretroviral treatment for nearly half a million Kenyans and a
variety of services to several million more, including nearly 700,000 orphans and vulnerable
children.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        A coordinator employed under a Centers for Disease Control and Prevention (CDC)
hiring mechanism and her small staff coordinate PEPFAR in Kenya. Four U.S. Government
agencies implement the program: USAID, CDC, the U.S. Army Walter Reed Medical Research
Unit, and the Peace Corps. The PEPFAR coordinator chairs a liaison group of implementing
agencies to coordinate planning, including preparation of the annual country operational plan and
program activities. Liaison group participants, whom the OIG team interviewed, see the group
as an effective mechanism. On the basis of recommendations from in-country interagency
technical teams, the coordinator and agencies have improved efficiencies by consolidating
service delivery among fewer nongovernmental organization partners in Nairobi and several
regions, and by reducing duplicative reporting. However, differences among implementing
agencies are preventing the completion of the effort to rationalize services and reporting; the
PEPFAR coordinator is attempting to resolve these differences.

        In 2011, the Office of the U.S. Global AIDS Coordinator (S/GAC) notified the Kenya
PEPFAR team that the program had about a $1 billion “pipeline” of undisbursed funds that had
accumulated, enough to fund PEPFAR activities for more than 2 years. This large sum had
accumulated over several years, during which PEPFAR was funded at an annual rate of about
$500 million while spending at an annual rate of about $350 million. S/GAC prepared a report
that analyzed the causes of the accumulation of funds and recommended remedies to prevent a
recurrence. PEPFAR in Kenya has begun to implement the recommendations.

        To bring funding and spending into better balance, S/GAC reduced the PEPFAR FY
2012 budget request for Kenya by more than 40 percent and proposed additional spending from
the pipeline that will bring total spending to about $150 million above the prior year rate.
S/GAC and PEPFAR in Kenya are planning how to use the additional funds through the country
operational plan process.

       PEPFAR in Kenya is a Phase II program, which emphasizes country ownership, capacity
building, and sustainable responses, while continuing support for prevention, care, and treatment
needs. Although Kenya is making progress building technical expertise and capacity to deliver
services, the government has not demonstrated willingness to increase its financial support,
which will determine the program’s sustainability.

        The 2010-2014 U.S.-Kenya partnership framework implementation plan establishes U.S.
and Kenyan Government commitments, including a Kenyan commitment to increase annual
funding between 10 and 25 percent for different program elements. Currently, Kenya funds less
than 10 percent of the program, and it is not meeting its commitments to increase funding. For
example, the Kenyan Government is not willing to fund a gap in condom procurement as agreed
in the plan. Higher U.S. spending, a consequence of the funding pipeline, adds to the difficulty of
securing Kenyan compliance with its funding commitments. Kenya’s financial reporting to
PEPFAR is opaque. It includes funds from third parties, such as the Global Fund and World
Bank, as a part of Kenya’s national expenditures in the fight against HIV/AIDS.

Recommendation 9: Embassy Nairobi should request that the Government of Kenya furnish
transparent and complete reporting of its financial support for the country’s national HIV/AIDS
response programs. (Action: Embassy Nairobi)
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 10: Embassy Nairobi should report annually to the Department of State on
the Government of Kenya’s financial performance against commitments set down in the
partnership framework implementation plan. (Action: Embassy Nairobi)

Foreign Assistance

       The United States delivers broad-based assistance to Kenya, budgeted at about $660
million in FY 2012, encompassing security, governance, investing in people, economic growth,
and humanitarian relief. Kenya is a focus country for three Presidential Initiatives in global
climate change, global food security, and global health. Democracy and governance programs to
support elections, encourage civic participation by youth, and promote harmonious relations
among ethnic communities are central to promoting the key mission objective of consolidating
Kenya’s constitutional reforms. The Bureau of International Narcotics and Law Enforcement and
the Defense Department’s Section 1207 fund support for reform in the criminal justice and law
enforcement systems, and to combat corruption.

        USAID and CDC function as the principal programming agencies for foreign assistance,
and Department officials play important roles to give direction and coordinate assistance. The
Ambassador has devoted particular attention to health, food security, and police reform. The
deputy chief of mission chairs the embassy’s interagency food security group, which exercises
oversight of the Global Food Security Initiative, potential humanitarian assistance needs, and
agricultural policy issues. Washington holds a uniformly high opinion of the mission’s food
security efforts. When famine struck Somalia last year, the embassy, led by the deputy chief of
mission, succeeded in getting Kenyan authorities to suspend a ban on genetically modified foods,
thus allowing U.S. food aid to pass through Kenya en route to beneficiaries.

        Health is by far the largest component of U.S. assistance to Kenya. The United States
budgeted about $550 million for assistance to the health sector in FY 2012, which was directed
to HIV/AIDS, malaria, tuberculosis, maternal and child health, family planning, and reproductive
health, among other areas.

       After arriving in 2011, the Ambassador showed a disinterest in receiving briefings about
the mission’s extensive health assistance programs. Nonetheless, he personally designed a health
campaign with the objective of reducing maternal and child mortality, and mortality from
noncommunicable diseases, by 50 percent in 1 year. He named the campaign Let’s Live.

       Staff found the Ambassador’s goals laudable in principle and consistent with Global
Health Initiative (GHI) principles to strengthen and integrate local health systems, and prioritize
maternal health. However, they expressed their concerns to him that the goals were not
achievable within a year and that programs had to observe applicable legal authorities. At the
same time, his assertive stance in pressing Kenya to adopt Let’s Live damaged his relations with
senior Kenyan health authorities. Let’s Live created a heavy additional workload for staff as
they managed ongoing programs while trying to be responsive to the Ambassador’s taskings,
occasionally incurring his anger if he perceived insufficient commitment.


                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       The Ambassador launched Let’s Live at a well-attended event in 2011 that included
senior U.S. Government officials from Washington. He communicated to staff in 2012 that he
was suspending the campaign because it did not have sufficient support and subsequently
convened a meeting with Kenyan officials to press the campaign. During the inspection, the
S/GAC coordinator was examining the possibility of funding elements of the campaign under the
PEPFAR mandate and in support of the GHI.

        How Let’s Live and the GHI relate to ongoing health assistance programs has not been
clarified. Following interagency consultation, the Department designated the PEPFAR
coordinator as the GHI coordinator (before the incumbent’s arrival). Not all agencies in Nairobi
accepted the decision, which led to unnecessary friction and delay. The Department’s GHI
Executive Director announced during a 2011 visit to Kenya that Let’s Live was the same as GHI
for Kenya. However, the GHI’s goals do not fully align with Let’s Live. For example, Let’s
Live covers noncommunicable diseases, and the GHI does not. According to embassy staff, the
GHI has not had an appreciable impact on health assistance programs in Kenya. At the
Ambassador’s initiative, the embassy has spent considerable time and effort on Let’s Live
without advancing the GHI. At the same time, Let’s Live has damaged mission morale and
negatively affected relations with senior Kenyan health officials.

Recommendation 11: Embassy Nairobi, in coordination with the Office of the U.S. Global
AIDS Coordinator and Office of the Executive Director for the Global Health Initiative, should
clarify the status of the Let’s Live campaign, including its relation to the Global Health Initiative,
and issue programming guidance to staff with the necessary interagency approvals. (Action:
Embassy Nairobi, in coordination with S/GAC and S/GHI)

Law Enforcement

        The regional security officer and several U.S. law enforcement agencies, along with
Department of Defense representation and the political and economic sections, pursue a broad
agenda of assistance, capacity building, reform, and mutual legal assistance. Representatives
from U.S. law enforcement agencies have responsibility for several countries in the region. The
embassy’s law enforcement activities support key U.S. interests in consolidating Kenya’s
constitutional reforms and in helping Kenya to secure its land and sea borders and points of
entry.

        The deputy chief of mission chairs the embassy’s law enforcement working group and
the regional security officer functions as its executive secretary. Participants of the law
enforcement working group have a high opinion of the group’s leadership and effectiveness as a
forum to share information and coordinate activities. The law enforcement working group
coordinated the embassy’s proposals to Washington for border security, entailing assistance from
several agencies and funding streams, as well as a plan to strengthen the capabilities and
professionalism of Kenya’s police. Cooperation among members of the law enforcement
working group has paid dividends in the form of more efficient delivery of training.

       The Bureau of Counterterrorism manages the largest single training program, while
personnel from the Bureau of Diplomatic Security provide the training. With an annual budget of
about $8 million over the last 2 years, the Antiterrorism Assistance Program trained about 1,200
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Kenyan personnel in a variety of prevention, investigation, and crisis management skills. In
2012, Kenyan law enforcement personnel trained by the program have captured suspected
members of al-Shabaab, investigated grenade attacks on civilian sites, and apprehended a U.S.
fugitive. The FY 2011 country assistance plan contains general objectives that are not amenable
to measurement or evaluation and do not meet standards in the Department’s performance
management handbook. The OIG team counseled the appropriate personnel to define objectives
in accordance with Department standards when the plan is next revised.

        The Bureau of Counterterrorism provides about $3 million per year under its Regional
Strategic Initiative for law enforcement agencies in Nairobi to train officials from Kenya and
other countries in East Africa. The regional counterterrorism coordinator, a mid-level officer in
the political section, helps U.S. embassies develop project proposals for funding. Law
enforcement working group agencies vet the proposals and provide counterterrorism training.
These projects build Kenya’s counterterrorism capabilities and partnerships in the region and
with U.S. law enforcement. To build capacity in Kenya’s law enforcement units, the United
States requires that recipients of antiterrorism training remain in their positions for 3 years
following training. In several instances, Kenyan personnel who received Antiterrorism
Assistance Program training have been transferred to other units and the embassy has
successfully appealed to Kenyan authorities to reverse the transfer.

        A report from the Government Accountability Office in June 2011 found that the
Antiterrorism Assistance Program and the Department of Homeland Security, Customs and
Border Protection both deliver training in Kenya on fraudulent documents, but that they do not
collaborate. The OIG team found that the situation has improved somewhat. The Antiterrorism
Assistance program offers basic training; Customs and Border Protection offers more advanced
training. The OIG team learned, however, that the absence of a formal reporting mechanism on
training poses a risk that the situation described in the Government Accountability Office report
could recur.

       Informal Recommendation 3: Embassy Nairobi should require law enforcement agency
       representatives to report to the law enforcement working group basic information on all
       proposed and approved law enforcement and counterterrorism training and to maintain a
       log of such training courses as a reference source.

Public Diplomacy

        The public affairs section has a clear, strategic focus on democratic reform, rule of law,
entrepreneurship, and outreach to key audiences, including youth, women, and Muslim groups.
However, a heavy and growing program load, staffing constraints, weak internal embassy
communication, and the Ambassador’s low media profile have hampered the section’s ability to
focus its programming and push out the U.S. message.

      Nairobi is one of the three public diplomacy priority posts in sub-Saharan Africa, and the
Department aims large numbers of exchange and educational programs there. The section is
sometimes hard-pressed to respond to Washington’s demands. The recent addition of two more


                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

LE staff positions, for the first time since 2003, will help to spread the workload. The MRR asks
for an assistant cultural affairs officer.

       Informal Recommendation 4: Embassy Nairobi should reprogram the public affairs
       section’s locally employed secretarial position as a professional associate or eligible
       family member position.

        Publicizing U.S. assistance to Kenya, especially in health and agriculture, is also a top
priority, but the Kenyan public’s awareness of U.S. assistance is not strong. The United States
does not receive appropriate public credit for efforts such as its anti-AIDS activities and for
USAID programs carried out by partner organizations. The press office has sometimes learned
about major activities by other sections and agencies at the last minute, making press outreach
less effective. The public affairs section has tried to convene a communications and coordination
meeting but did not vigorously pursue it due to inertia and competing demands on staff time.

Recommendation 12: Embassy Nairobi should institute regular meetings of sections and
agencies conducting assistance activities to discuss communications strategy and ways to
highlight U.S. activities in Kenya. (Action: Embassy Nairobi)

       Communication within the public affairs section is not adequate. The section’s senior
staff meets weekly, but the entire section staff meets just once a month or less. The dearth of
meetings negatively affects(b) (5)       effectiveness, and the information and cultural units lack
an awareness of the other’s work. The section also has no combined calendar of events, which
would be a useful planning document.

       Informal Recommendation 5: Embassy Nairobi should institute more frequent all-hands
       meetings of the public diplomacy staff and compile a joint calendar of upcoming public
       diplomacy events.

         The Ambassador is an underused public diplomacy resource. His command of Swahili
and deep interest in Kenya are potentially great assets, but he has deliberately kept a low public
profile. He has participated in some events to publicize assistance programs, but he has not given
major public policy addresses and had conducted only a limited number of media interviews and
press activities. He also addressed a Kenyan audience without coordinating with the public
affairs section.

Recommendation 13: Embassy Nairobi should implement a strategy to integrate the
Ambassador more closely into public diplomacy activities to promote U.S. policy and publicize
U.S. assistance. (Action: Embassy Nairobi)

       Information Outreach and Social Media

        The public affairs section manages the embassy’s public Web site, but does not obtain
sufficient contributions from other sections and agencies to enable the site to reflect the full
range of embassy activities. Some of the Web site headlines at the time of the inspection were
more than a month old, and most of the items were about public affairs section activities. The

                                          17
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

embassy Web site contains links to the USAID and CDC Web sites, but could usefully include
more items from these sites on the main embassy Web site.

        Informal Recommendation 6: Embassy Nairobi should include contributions from all
        sections and agencies on the embassy Web site.

        The public affairs section’s social media efforts are disjointed and uncoordinated. The
section manages the embassy’s Facebook page and updates it frequently, making good use of
material from the Bureau of International Information Programs. However, the page does not
include much local content and sparks little discussion of the items. A separate embassy blog
receives more comments, but postings are 1 to 3 months apart. The American Reference Center
has a Facebook page that has very little content, and the U.S. Virtual Consulate Mombasa also
has one with even less content. The section has requested a social media LE staff position for the
last 2 years but has not received the required funding. Social media technologies are important
public diplomacy tools, especially for reaching the key youth audience, but will require an
investment in staff time and training and a creative approach to engaging the audience. The
public affairs section does not have a social media strategy, and the LE staff member who
maintains the social media site, in addition to other duties, has not received social media training.
Per 5 FAM 793.5, social media sites require “sufficient maintenance and a commitment of
resources.”

Recommendation 14: Embassy Nairobi should implement a social media strategy that focuses
its efforts on a more limited number of sites that the embassy has a capacity to update and
maintain. (Action: Embassy Nairobi)

       In addition to Facebook, the public affairs section also uses Twitter and Flickr frequently.
However, it has not registered its social media sites on the Information Technology Asset
Baseline, as required by 5 FAM 793.1 d., and does not include terms of use on the sites, as
required by 5 FAM 793.4 b.

Recommendation 15: Embassy Nairobi should register all of its social media sites in the
Information Technology Asset Baseline and include terms of use on the sites. (Action: Embassy
Nairobi)

        In addition to the public diplomacy social media sites, the American Citizens Services
office also has a Facebook page aimed at Americans in Kenya and a more limited one on
Somalia. However, the embassy Web site does not have a link to these or other embassy-run
social media sites.

        Informal Recommendation 7: Embassy Nairobi should include clear links from its
        public Web site to its social media sites.

        American Reference Center and Educational Advising

       The American Reference Center is located within the embassy, which makes it less
publicly accessible, but is able to attract about 20 users a day. To further its outreach, it has set
up an active network of American Corners, tied in well with the section’s Muslim outreach
                                           18
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

efforts. To reach youth, it has also initiated a “Rotating Collection” program for local
universities.

Innovative Practice: Rotating Book and Video Collection

Innovative Practice: Rotating a collection of books and videos among universities

Issue: Local students needed access to good materials on business management,
entrepreneurship, public speaking, women’s issues, and youth empowerment, but the American
Reference Center’s suburban Nairobi location was inconvenient for use by large numbers of
students.

Response: The American Reference Center created a rotating collection of 200 books and
videos tied to specific courses or curricula that it lends to universities for a semester or two for
use by students and professors in their classes.

Result: The books and materials receive short-term, intensive use in a succession of locations.
The initial launch of the collection at Kenya Polytechnic University garnered positive publicity,
strengthened the center’s partnership with the university, and provided a programming platform.
The program has proven so popular with the Polytechnic University that three other universities
signed up to receive the collection in turn.


        The regional information resource officer covers nine countries from Nairobi. The
position is language designated at the 2/2 level for French. At one time, the position covered
Rwanda and Burundi. Although courtesy-level French is still helpful for Mauritius and
Madagascar, it is no longer essential for the performance of duties.

Recommendation 16: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs and Embassy Nairobi, should eliminate the 2/2 French
language designation for the regional information resource officer position in Nairobi. (Action:
DGHR, in coordination with IIP and Embassy Nairobi)

        The section has supported an educational advising center through grants for a number of
years, but the advising center was unable to become financially self-sustaining, and there were
disagreements over the proper use of the grant funds. As the inspection was underway, the
Bureau of Educational and Cultural Affairs provided Embassy Nairobi with funds to hire an
educational adviser and bring the Education USA function into the embassy. This new addition
will require a reconfiguring of space in the American Reference Center, but it has the potential to
improve the promotion of study in the United States and facilitate closer cooperation with the
consular section regarding student visa information.

Recommendation 17: Embassy Nairobi should close out the open grants to the previous
educational advising center. (Action: Embassy Nairobi)

Recommendation 18: Embassy Nairobi should implement a plan to enable prospective students
to access the advising center. (Action: Embassy Nairobi)
                                              19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 8: Embassy Nairobi should implement a plan to reconfigure
       embassy space to accommodate an educational adviser.

       Outreach to Ethnic Somalis in Kenya

         Until May 2011, the Somalia Unit, which is based at Embassy Nairobi, conducted public
diplomacy outreach to Somali refugees and other ethnic Somalis living in Kenya. The goal was
to counter extremist ideology and promote reconciliation, good governance, democracy, and
mutual understanding. This outreach conveyed U.S. public diplomacy messages into Somalia
through the refugee community’s close connections to family and friends in Somalia. Embassy
Nairobi curtailed the activities of the Somalia Unit within Kenya for reasons ostensibly related to
the chain of command and authority. However, outreach to Somalis is not a high priority for the
embassy’s public affairs section and for which it has received no additional resources. As a
result, outreach to the Somali diaspora and refugees in Kenya has declined significantly.
Nevertheless, Washington views such outreach as an important public affairs priority.

Recommendation 19: Embassy Nairobi, in coordination with the Somalia Unit and the Bureau
of African Affairs, should implement a formal and practical arrangement for the Somalia Unit
and Embassy Nairobi to conduct public diplomacy activities aimed at Somalia refugees and
residents in Kenya. (Action: Embassy Nairobi, in coordination with the Somalia Unit and AF)

       Grants and Administrative Issues

         As a result of personnel gaps and a lack of training, the public affairs section issued
grants in FY 2010 with improper documents, such as grants without specified dates of
performance. The public affairs section is presently making extensive use of grants (68 in FY
2011), with no major documentation problems. However, as long as the section only has one
fully trained employee with grants expertise, this situation could occur again, if there are staffing
disruptions.

Recommendation 20: Embassy Nairobi should give a second locally employed staff member in
the public affairs section grants training and the opportunity to prepare grants on an occasional
basis in order to maintain grants expertise. (Action: Embassy Nairobi)

        In addition to issuing grants for public diplomacy programs, officers in the public affairs
section also sign grants for other sections without grants officers. The public affairs section does
not maintain the documentation for all of these grants. The largest number of these is for
PEPFAR’s community grants program, accounting for 15-20 grants per year. As the grants
officer’s representatives, PEPFAR staff members monitor the performance of the grantee and
keep all of the grant documents in the PEPFAR office. Unless there is a need for a time
extension or deobligation of funds, the grants officer does not see the documents again, which
does not allow appropriate oversight. According to the Bureau of Administration’s “Ask Grants”
portal, grants officers retain programmatic and financial responsibilities for the grants they sign.




                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 9: Embassy Nairobi should maintain duplicate copies of
       basic grants documents in the office of the grants officer and should establish a procedure
       whereby the grants officer approves interim and final reports and examines the full grant
       file before close out.

         If PEPFAR officers obtained grants warrants, PEPFAR would not need to make duplicate
files or have another office unfamiliar with the program sign the grants.

       Informal Recommendation 10: Embassy Nairobi should require at least one PEPFAR
       program officer to obtain a grants warrant.

       The section’s Muslim outreach has grown from providing information to more active
programming, but the position description of the LE staff member responsible for coordinating
embassy-wide engagement does not capture the expanded duties. Similarly, another LE staff
member has taken on procurement responsibilities not included in the position description.

       Informal Recommendation 11: Embassy Nairobi should update the position descriptions
       of public affairs section staff members whose duties have expanded.

        The section submits an annual training plan for LE staff members and prepares employee
development plans, but there is a perception among the LE staff in the public affairs section that
the section has not allocated training opportunities in a fair and transparent way. Staff training is
a key developmental tool for employees, but it is difficult to efficiently and fairly make decisions
about training priorities without a record of prior employee training.

       Informal Recommendation 12: Embassy Nairobi should establish a complete list of the
       training that each public diplomacy local staff member has received and when.

        The public affairs section provides audiovisual and photographic support to the entire
embassy, including for in-house events, such as a wine and cheese tasting, which have no public
diplomacy component. This requirement takes the employee away from public diplomacy duties,
leads to conflicting demands, and uses public diplomacy resources for what should more
properly be a management or International Cooperative Administrative Support Services
(ICASS) function.

Recommendation 21: Embassy Nairobi should develop the capacity outside the public affairs
section to handle audiovisual and photographic requirements for nonpublic diplomacy events.
(Action: Embassy Nairobi)

Consular Affairs

         The consular section is a medium-sized operation, handling a complex workload from
Kenya and eight other countries in the region, including Somalia, South Sudan, and Eritrea. It
fulfills its consular responsibilities effectively and in a professional fashion. In FY 2011 the
office processed 24,000 nonimmigrant visas, 6,000 immigrant visas, and over 1,500 reports of
birth and passport applications. In spite of a travel warning, Kenya remains a prominent tourist
destination and emergency cases are very time consuming. Section staffing levels are appropriate
                                          21
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

for the workload. The section has mutually supportive relations with other sections and agencies
in the embassy, as well as other U.S. missions in the region. The LE staff is knowledgeable and
professional.

        The section, however, has serious internal communication (b) (5)       problems. In the
last 2 years, the section rearranged its physical layout, made improvements in accountability, and
reorganized the visa processes. During the same time, the mission dismissed three LE consular
staff for malfeasance, and tensions and suspicions among consular staff remain.


       Somalia Issues

        The Somali applicant immigrant visa and nonimmigrant visa workload has grown
considerably. Somali-Americans in growing numbers also seek reports of birth or passports. The
section has been trying for many months to fill an LE position with another Somali speaker. The
section coordinates well with other posts in the region and has been a leader in developing a
consistent approach to establishing Somali applicant identity.

        The section is also responsible for American citizen services for the southern area of
Somalia, including the capital, Mogadishu; Embassy Djibouti has responsibility for the northern
part of Somalia. These cases are very time-intensive, and the consular section works closely with
the Somalia Unit, which provides expert advice on Somalia and possesses Somali and
nongovernmental organization contacts. The Somalia Unit provided invaluable assistance in
recent kidnapping cases. In several instances American citizen cases originating in Djibouti’s
area of responsibility have been referred to Nairobi because of the Somalia Unit’s capabilities.

        The division of Somalia into two regions covered by two separate consular offices
confuses Americans operating in Somalia, as well as Somalis. This division also has the potential
for different levels of consular services, a question that the OIG team was not able to evaluate.

Recommendation 22: The Bureau of Consular Affairs, in coordination with the Bureau of
African Affairs and Embassy Nairobi, should review consular responsibilities for Somalia and
determine whether to concentrate them in Nairobi’s consular section. (Action: CA, in
coordination with AF and Embassy Nairobi)

       Consular Management

        The consular section leadership has undertaken initiatives to streamline processes and
significantly improve accountability. (b) (5)
                      The OIG team observed that the consul general’s top-down, directive
management style has inhibited bottom-up communication. Moreover, consular management
assigns work and moves staff among units with little input from those affected. Lack of
transparency in decisionmaking and a lack of written requirements for requesting leave and for
assigning internal responsibilities, such as for opening and closing the section or weekend
emergency duties, also contribute to perceptions of favoritism. The OIG team counseled consular
management on ways to address these issues.

                                         22
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       One consequence of the section’s reorganization and of streamlining the visa processes is
that LE staff has been moved around and have taken on different duties. In many cases position
descriptions have not kept pace with these changes and are seriously outdated.

Recommendation 23: Embassy Nairobi should update all position descriptions for locally
employed staff in the consular section to reflect their current duties. (Action: Embassy Nairobi)
       (b) (5)


Adding to this perception is the absence of any internal meetings directly between senior LE
staff, the consul general, and the deputy. Such meetings are essential for unit cohesion (b) (5)
              and provide the opportunity for consular management to listen to input directly
from the LE staff.

       Informal Recommendation 13: Embassy Nairobi should establish a regular meeting
       schedule in the consular section between the senior locally employed staff from each unit,
       the consul general, and the deputy consul general.

        The consul general dedicates most of her time to managing the section’s relations with
other parts of the embassy and the embassy’s front office. The consul general delegates most
day-to-day operations of the section to her deputy. The deputy is overwhelmed with operational
responsibilities and is unable to spend adequate time closely supervising and mentoring the
entry-level officers who serve as unit chiefs. The coming assignment of a mid-level fraud
prevention manager provides an opportunity to review the distribution of operational
responsibilities (e.g., entry-level officer ratings, accountability for cash collections, accountable
items, visa adjudication reviews) among the three senior positions.

Recommendation 24: Embassy Nairobi should redistribute the operational oversight
responsibilities in the consular section among the supervisory consular officers. (Action:
Embassy Nairobi)

        The consul general only adjudicates “A” visa referrals. The section deputy adjudicates
“B” visa referral cases. The consul general does not adjudicate routine visa cases or citizenship
cases. If the consul general were to assume some routine adjudication responsibilities, it would
strengthen supervisory credibility as well as increase section flexibility in responding to a
staffing crunch or work surge.

       Informal Recommendation 14: Embassy Nairobi should direct the consul general and
       the deputy consul general to adjudicate standard visa and citizenship cases on a periodic
       basis.

       In the past few months the section has started drafting and posting standard procedures on
a wide range of matters, including when to refer cases to the fraud prevention unit, how to deal
with identity issues in non-Kenyan visa cases, working with the embassy phone operators, and
expectations for the section greeters and contract guards, among many others. The section’s
operations will be more effective once it standardizes its procedures,

                                           23
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 15: Embassy Nairobi should complete standardizing
       operational procedures in the consular section, post these procedures on internal Web
       sites, and review them on a regular basis.

        Line supervision of the four units in the consular section is assigned to the entry-level
consular officers on a rotating basis. The officers move through the units about every 8 months
to gain exposure to the full range of consular work as well as develop supervisory skills. The
entry-level officers also are responsible for various portfolios that are mostly tied to the
supervision of a specific unit. Delinking some of these portfolios from unit chief positions or
creating others that individual officers could carry with them as they rotate among units would
provide the section with greater continuity of service in such areas as outreach, training
coordination, and consular systems liaison.

       Informal Recommendation 16: Embassy Nairobi should establish portfolios for entry-
       level consular officers to retain as they rotate among units in the consular section.

       Physical Layout

        Consular workspace is extremely cramped, but section management has optimized the
space available. Line of site is limited due to high dividers between cubicles, which reduce
effective supervisory accountability and control.

       Informal Recommendation 17: Embassy Nairobi should request that the Bureau of
       Consular Affairs modify or replace the existing high dividers between the cubicles in the
       consular workspace.

       The consular public waiting room is small and an odd triangular shape. The recent
addition of a covered outside waiting area is a major improvement. The waiting room itself is
noisy and interview conversations are clearly audible between windows and throughout the
waiting room.

       Informal Recommendation 18: Embassy Nairobi should add privacy wings with sound
       baffling to the interview windows in the consular waiting room.

       American Citizens Services

        The American citizens services unit provides very good support to Americans in Kenya.
Heavy tourist traffic, high crime rates, and limited infrastructure provide a steady stream of
emergencies. The steadily growing numbers of Somali-Americans and Sudanese-Americans who
come to Nairobi to report the births of children or obtain replacement passports for infant
children is particularly challenging given language issues and the questionable state of Somali
documentation. The unit recently completed a total review and revision of their citizen
registration records, warden system, and emergency planning. It purged out-of-date registrants
and identified gaps in warden coverage.




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


       Nonimmigrant Visas

        Nairobi’s nonimmigrant visa workload has fluctuated between 20,000 and 30,000
applications for the past decade. However the complexity of the work has steadily increased with
the growing numbers of cases from other countries, now including South Sudan, Somalia, and
Eritrea. Understanding the cultural context of these many nationalities and ethnicities, as well as
the lack of reliable documentation, makes adjudication difficult and time-consuming. The unit is
supervised by an entry-level officer on a rotating basis. The section deputy supervises the unit
chief but needs to more closely monitor the unit’s operation. There are variances in refusal rates
among adjudicators and uneven case handling procedures. The OIG team counseled section
management on developing a more closely supervised orientation program for newly arriving
personnel.

        The section oversees a well-running visa referral program. The visa chief and the consul
general offer regular training sessions for referring officers in Nairobi and also provide remote
briefings via phone and digital videoconferences to officers in Embassy Juba and Embassy
Asmara.

         The nonimmigrant visa chief also coordinates public outreach. The section works well
with the public affairs section in this area, but after the public affairs section hires a new
education advisor, the OIG team counseled that greater use of this resource be made in outreach
efforts toward student groups.

       Immigrant Visas

       Nairobi is the designated processing point for Kenya and eight other countries. About
one-quarter of the cases require interpreters in many different languages, which further slows and
complicates the entire process. Understanding the cultural context of these many nationalities
and ethnicities as well as the lack of reliable documentation makes adjudication difficult and
time-consuming. The immigrant visa unit has a cooperative relationship with the consular
sections in those countries for which they process immigrant visas.

        Kenya joined the Hague Convention on Protection of Children and Co-operation in
Respect of Intercountry Adoption in 2008, but accession and implementation were delayed. The
unit’s adoptions handler worked diligently with Kenyan counterparts to help Kenya complete the
accession process, and Kenya’s first Hague adoption was finally processed in December 2011.

       Global Support Strategy

         One year ago, Embassy Nairobi transitioned to the global support strategy, which is a
global coordination for contracted consular services. This initial transition was difficult and is
still not perfect, with the contractor having problems accommodating the multinational nature of
Embassy Nairobi’s clientele. For this reason, the embassy has to maintain parallel appointment
systems and collect significant amounts of visa fees on site for applicants originating outside
Kenya. The OIG team counseled the section to provide feedback to the Bureau of Consular
Affairs about recent problems with the regional call center and to seek remediation.

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


       Fraud Prevention

        The fraud prevention unit is thoroughly integrated into the visa and citizenship
operations. The unit produced a superior adjudication manual that contains a wide variety of
information and exemplars and provides some cultural context for interviews with applicants
throughout the region of consular responsibility. The consul general and her deputy have traveled
to Juba recently to work out arrangements for processing official visas and visa referrals. Similar
arrangements are now going into effect for Asmara. The fraud prevention manager has made one
trip to Kampala. Email, telephone, and digital video conferencing with the neighboring consular
sections are not a substitute for actual visits, and the OIG team discussed the utility of personal
visits by consular managers or the fraud prevention manager to these neighboring capitals to
improve cooperation.

       Informal Recommendation 19: Embassy Nairobi should request funding from the
       Bureau of Consular Affairs for consular personnel to travel to neighboring embassies for
       which Nairobi has consular processing responsibilities.

       Assistant Regional Security Office-Investigations

        The assistant regional security officer-investigations works closely with the fraud
prevention unit. The regional security officer is the rating officer and the consul general is the
reviewing officer. The consul general and regional security officer overcame initial confusion
over the respective duties of the investigator and fraud prevention manager. The two units are
working cooperatively. The investigator works closely with the many law enforcement elements
of the embassy and interacts well with local law enforcement authorities to investigate incidents
of fraud and conduct training.

       Visas Viper Program

        Embassy Nairobi held all required Visas Viper meetings and the consular section
submitted all required reports on time. Current consular management reinvigorated the program.
                          (b) (5)
The committee submitted       names for inclusion in this process last year. In April 2012, the
section provided Washington with (b) (5)       names for inclusion in the visa lookout system,
which is shared with U.S. law enforcement and other agencies.




                                                26
                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
               Agency                     U.S.     U.S.     Foreign    Total       Total Funding
                                         Direct    Local    Service    Staff
                                          Hire     Hire     National
Department of State                         145        42        435      622          $30,068,551
Diplomatic & Consular Programs              107        15         38      160           $5,222,061
ICASS                                         13       25        347      385          $18,456,533
Public Diplomacy                               4                  15       19           $1,199,657
Diplomatic Security                            8       1          31       40           $2,396,914
Marine Security                                8                   4       12             $182,400
Representation                                                              0              $71,400
Overseas Buildings Operations                 2                             2           $2,311,486
UNEP                                          3        1                    4             $224,400
Representation                                                              0               $3,700

Broadcasting Board of Governors               0                   1            1          $210,170
Foreign Agricultural Service                  2                   4            6          $249,668

Department of Defense                        84        0         10        94          $44,263,784
Defense Attaché                              10                   3        13             $744,007
Defense Cooperation                           7                   5        12           $2,800,000
Medical Research Unit                        16                   2        18          $38,841,777
Naval Criminal Investigative Service          1                   0         1             $213,000
Other                                        50                   0        50           $1,665,000

Department of Justice                         9        0          4        13             $911,913
Drug Enforcement Administration               3                             3             $510,000
Federal Bureau of Investigation               5                   3         8             $153,313
Legal Attaché’s Office                        1                   1         2             $248,600

Department of Homeland Security               4        0          7        11             $750,331
Citizenship & Immigration Service             2                   3         5             $202,879
Custom and Border Protection                  1                   2         3             $216,455
Immigration and Customs Enforcement                                         0                   $0
Transportation Security Administration        1                   2         3             $330,997

Foreign Commercial Service                    1                   6         7            $365,150
PEPFAR                                        1                   5         6          $27,858,877
USAID                                       112                 236       348         $613,079,137

Other Foreign Assistance                     43        0        153       196          $13,771,114
Library of Congress                           1                  23        24           $1,300,000
Peace Corps                                   4                   5         9           $2,579,380
Treasury                                      3                             3             $110,000
CDC                                          35                 125       160           $9,781,734
Totals                                      401       42        861      1304         $731,528,695
                                           27
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Overview

        Embassy Nairobi is now one of the largest U.S. diplomatic missions in the world. It has
three times as many direct hires as in 1998; from 2007 to 2012, the mission acquired 71 percent
more U.S. direct hires, 40 percent more LE staff, and 183 percent more residential square
footage. The embassy also processes twice as many vouchers as in 2007. At the same time, U.S.
direct-hire support personnel remained static, while the ratio of customers to service providers
nearly doubled. The current ratio of 29 U.S. direct-hire customers to 1 ICASS U.S. direct hire is
well above the worldwide average ratio of 18 to 1. Over the last 2 years, the incumbent
Ambassadors approved 96 new positions through the National Security Decision Directive 38
process.

        Most agencies subscribe to ICASS, and the mission is in the process of mitigating the
imbalance between administrative support personnel and the number of mission customers. The
ICASS council agreed to an increase of 50 LE administrative support positions over the last 2
years. Across management sections, there is still a need for approximately 20 additional LE
administrative support positions. ICASS service providers have been creative in their use of
eligible family member (EFM) positions to enhance customer service and efficiency.

        In seeking to meet the challenges of dramatic mission growth, the management section
responded in several creative ways. The embassy has become a leader in the consolidation of
USAID and Department administrative support services and is establishing itself as a regional
training center. The embassy has consolidated services in motor pool, warehousing, janitorial,
maintenance, housing, mailroom, and financial operations and has begun to consolidate some
human resources functions; USAID is joining an embassy contract to outsource receipt and
review of employment applications for LE staff positions. The embassy has also implemented
automated systems such as eServices and ePerformance.

         This rapid growth and resultant change in administrative services has caused customer
service and staff mentoring to suffer. Specific deficiencies are addressed in appropriate sections
of this report. Embassy leadership has come to realize that mission growth needs to be
constrained. The mission is now applying critical scrutiny to new National Security Decision
Directive 38 position requests and, in the last year, disapproved three such requests. Mission
management is now more attentive to the need for increased administrative support with each
National Security Decision Directive 38 request and timely receipt of start-up funds for each
approved position.

       Cooperative Management Initiative and Customer Service

        The embassy recently established a quality coordinator position within the cooperative
management initiative framework to improve management processes and track Department-
mandated metrics for performance. In parallel, the mission established a four-person customer
service center, which functions as a one-stop shop for clients. Client feedback on the center is
extremely positive.

       The quality coordinator assesses electronic management processes and establishes
metrics for evaluation, but there are areas, such as EFM employment and residential
                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

maintenance, that need immediate improvement. The customer service center is a step in the
right direction, but its current methods of walking new arrivals through inprocessing is neither
necessary nor a good use of staff resources and may not stand up to the high staff turnover in
2012.

       Informal Recommendation 20: Embassy Nairobi should establish work priorities for the
       quality coordinator and processes for the customer service center to provide adequate and
       equitable support services for new arrivals.

       Informal Recommendation 21: Embassy Nairobi should provide customer service
       training to the locally employed staff.

       Support to Other Agencies

       Coordination is generally good between the ICASS customer service providers and other
agencies, though there is room for improvement. The weekly management staff meeting includes
representatives from USAID, the Department of Defense, and CDC. However, the CDC offices
in Nairobi are located across town, and traffic congestion makes it difficult—upwards of 2
hours—for CDC staff to travel between its offices and the chancery.

       Informal Recommendation 22: Embassy Nairobi should use video or teleconferencing
       to allow personnel from the Centers for Disease Control and Prevention in Nairobi and
       Kisumu to participate in management meetings.

               The consolidation of USAID and Department administrative services is ahead of
       the global schedule.

Kisumu

        Eleven CDC employees and six Walter Reed Army Medical Research Unit employees
and their families reside in and around the town of Kisumu, 165 miles from Nairobi. These
employees subscribe to all ICASS services; however, they are not receiving adequate support
services from Embassy Nairobi. The ICASS council recently authorized three new administrative
support positions for Kisumu, a housing manager, an administrative assistant, and a part-time
community liaison office coordinator, but these positions have not been filled. Employees in
Kisumu live in residences that have chronic and dangerous maintenance issues, but the vendors
under blanket purchase agreements are not meeting Kisumu customer needs. The embassy
recently sent a maintenance team to Kisumu, the first of a planned series of visits. The cashier
does not receive petty cash replenishments in a timely manner, which results in employees
making out-of-pocket purchases and receiving retroactive reimbursements. Kisumu is also
unprepared for the summer turnover in terms of the housing make-readies due to lack of staff.
Per 6 FAH-5 H-032 a., the ICASS service provider is responsible for the delivery of services for
each of the cost centers for which a subscriber pays.




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Nairobi should implement a comprehensive support plan for
Kisumu that includes at least quarterly visits by a U.S. direct-hire International Cooperative
Administrative Support Services provider. (Action: Embassy Nairobi)

Recommendation 26: Embassy Nairobi should expedite the hiring of a Kisumu housing
manager. (Action: Embassy Nairobi)

Recommendation 27: Embassy Nairobi should implement a plan to consistently deliver cash
replenishments to Kisumu’s cashier. (Action: Embassy Nairobi)

Recommendation 28: Embassy Nairobi should send appropriate International Cooperative
Administrative Support Services staff to Kisumu to establish blanket purchase agreements with
vendors that are responsive to Kisumu needs. (Action: Embassy Nairobi)

Real Property

       Office Facilities

       The embassy compound includes the chancery with Marine security guard quarters and
another large office annex that USAID owns. The embassy has done an admirable job of
accommodating growth within existing space by establishing standard-sized cubicles and
rearranging existing offices. Though approximately 50 percent of embassy employees have
changed office space in the last 2 years, the OIG team heard few employee complaints. The
embassy is implementing plans to add needed examination rooms in the health unit and food
preparation space in the cafeteria.

        The embassy has moved offices into the USAID building without regard for USAID’s
ownership of the building and the guidance provided in 09 State 112249, dated October 30,
2009, which provides for the USAID mission director to assign vacant space in the USAID
building, subject to chief of mission concurrence. In the same message, the Department
addressed how to pay for building operating costs and other expenses. Ignoring this guidance has
led to needless friction and frustration within the mission.

Recommendation 29: The Bureau of African Affairs, in coordination with the Office of the
Legal Adviser, should implement a memorandum of understanding with the U.S. Agency for
International Development governing decisions on the use of the Nairobi U.S. Agency for
International Development annex building and on building operating costs, in accordance with
existing Department of State guidance. (Action: AF, in coordination with L)

       Maintenance Shops

        The facilities maintenance shops, which are housed in a small government-owned
residence, are inadequate and unsafe. The driveway is too narrow for large trucks; the stairs do
not meet safety, health, and environmental management requirements; and workshops are
cramped and inefficient. Despite efforts to maximize office and shop space, it is not feasible for a
very large embassy to house its maintenance shops in such a small and unsuitable space. The

                                          30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

shops should relocate to the new warehouse. (See Recommendation 31 in the General Services
Office section of this report).

       Housing

        Embassy Nairobi successfully enters all government-owned and long term leased
properties into the Real Property Application system and reports results to the Bureau of
Overseas Buildings Operations (OBO) as required. To handle the increasing growth of the
mission, the embassy is working with OBO to lease a housing compound of 66 units. This
housing compound is being built as an “option to lease” project, which carries no financial
obligations for the U.S. Government. The project would save over $1 million per year in
combined local guard program and lease costs. It would also provide secure and more easily
maintained housing, (b) (5)                                     as there are so many families
who want to live on such compound housing.

       Chief of Mission Residence

        The chief of mission residence is well maintained and functional for representation.
There is a small pond on the grounds encircled by a low stone wall on which is inscribed the
names of all the U.S. employees and LE staff members killed in the 1998 Nairobi embassy
bombing. The Ambassador is expanding this U.S. memorial to include all Kenyans killed in the
blast. Per written guidance from OBO and the Department, no monument or memorial is to be
altered or created without authorization from the Department.

Recommendation 30: Embassy Nairobi should cease work on the memorial at the chief of
mission residence and seek Department of State authorization for any alterations. (Action:
Embassy Nairobi)

General Services Office

        The general services office makes good use of EFM staff to compensate for the small
number of U.S. direct-hire employees. The level of services is generally good. Two assistant
general services officers assisted by an EFM employee hired under the Expanded Professional
Associate Program, manage housing, procurement, motor pool, and property. The supervisory
officer concentrates on leadership and management of the very large section of approximately
135 employees. Deliberate attention to team building and communications has yielded improved
collaboration among the section’s units. Questionnaire and survey results indicate a high level of
satisfaction with most services. However, some customers have shown dissatisfaction with
Department-mandated software programs such as eServices and E2 Travel Solutions.

       Procurement

        The procurement unit is adequately staffed and observes proper acquisition procedures.
The staff reports that the workload is heavy but manageable. Despite sound management
procedures, the latest ICASS customer satisfaction survey rated the procurement unit’s
performance below worldwide and regional bureau averages. In addition, the embassy has not
taken full advantage of the purchase card program. Although all 10 procurement agents now use
                                         31
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

purchase cards, due to a lack of consistent training some of them have trouble reconciling
monthly statements, which could lead to incorrect charges or fraudulent purchases.
        The unit recently implemented ARIBA, which allows the unit to track actions, through
procurement and receiving to final payment, and facilitates proper close-out of purchase orders.
ARIBA provides procurement process data in real-time, and clients can access the system to
track their requests. Broader dissemination of information on ARIBA status tracking would
allow ICASS customers to monitor procurement requests.

       Informal Recommendation 23: Embassy Nairobi should provide to International
       Cooperative Administrative Support Services customers information on the benefits of
       using ARIBA to track the status of procurement requests.

       Warehouse and Supply Chain Management

        The embassy maintains two leased warehouse facilities off the embassy compound for
logistical operations. The warehouse facilities are approximately 11 miles from the embassy
compound and the heavy and constant traffic can transform a routine one-way trip to the
warehouse into a 2-hour ordeal. Because access to the warehouse is uneven, management
controls suffer. The OIG team observed that the facility is substandard and subject to flooding.
During the inspection, the warehouse was forced to shut down operations due to flooding. OIG
recommended in March 2001 and July 2007 that the Department secure a new warehouse and
maintenance facility. OIG closed the recommendations in December 2001 and April 2012,
respectively, after determining that there had been sufficient progress in planning and budgeting
for the new facility. However, OBO has not obligated funding for a specific property.

        The embassy’s preferred solution to this problem is to lease a facility that is nearer to the
embassy compound and housing. In a January 16, 2007, briefing with OIG, the OBO director
said that his office would find a way to support the embassy when it located an appropriate
property. Current OBO staff reiterated this position to the OIG team. Because an extensive
search for a new warehouse was unsuccessful, the embassy and OBO decided to search for
undeveloped land upon which a warehouse facility can be constructed. The embassy has
identified three possible properties and has furnished OBO with the necessary information. The
current warehouse lease will expire in 2014.

Recommendation 31: The Bureau of Overseas Buildings Operations should fund a suitable
warehouse and maintenance facility for Embassy Nairobi and provide the embassy with a
relevant funding timeline. (Action: OBO)

       Fuel Controls

        The embassy’s fuel standard operating procedures are detailed and effective. The
document includes procedures to separate duties—bulk fuel deliveries are witnessed by an
American officer on a scheduled rotation and fuel deliveries for mission residences are handled
by the facilities maintenance section. The section records fuel deliveries in log books that are
closely monitored by supervisors in the general services office and the facilities maintenance
section.

                                          32
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


       Customs and Shipping

        The customs and shipping section employs one LE staff supervisor and six assistants.
Each assistant is responsible for the full range of custom and shipping services for up to 60
families. The ICASS council approved 2 additional LE staff positions for the understaffed office
to assist with the increase growth of U.S. direct hires. The customs and shipping section has
adopted the one-stop customer service model, which the OIG team observed to be an ineffective
use of resources. The traditional model of functional specialization allows each employee to
cultivate key contacts in a specific area, such as with incoming shipment custom officials,
driver’s license officials, and immigration officials at the airport.

       Informal Recommendation 24: Embassy Nairobi should reorganize its customs and
       shipping unit into functional specialties.

       Motor Pool

        The motor pool section provides excellent vehicle support, including for numerous
temporary duty and VIP visitors. The embassy attributes the decrease in motor vehicle accidents
and fatalities to the DriveCam Program, which has proven to be a useful tool for monitoring
driver performance.

       Motor pool drivers’ medical certifications are outdated due to a lack of awareness in the
general services office of the regulations. Per 14 FAM 432.4 c.(4)(a), motor pool drivers must be
medically certified every year. Not adhering to the regulation puts drivers and passengers at risk.

Recommendation 32: Embassy Nairobi should comply with the Department of State
requirement for drivers to be medically certified annually. (Action: Embassy Nairobi)

        The drivers now maintain daily usage records in WebPASS, the Department’s Web-based
business tool and in the Department’s recently implemented Fleet Management Information
System. The Fleet Management Information System is an off-the-shelf, global software package
that provides relevant data on all vehicles and vehicle-related expenses, improving management
controls to ensure data accuracy and auditing capabilities. During the OIG inspection, the Office
of Logistics Management staff was on site to offer support and to teach the new system to motor
pool employees.

        The embassy provides home-to-office transportation to American employees who live on
the Rosslyn Ridge housing compound. The shuttle service is not available to embassy employees
residing at approximately 30 other locations across Nairobi. The embassy is not in compliance
with 14 FAM 432.3 to provide equitable services to all personnel.

Recommendation 33: Embassy Nairobi should discontinue shuttle service to Rosslyn Ridge or
offer the service to all employees. (Action: Embassy Nairobi)

       The OIG team observed that the embassy is not collecting home-to-office transportation
charges from shuttle passengers, as required in 14 FAM 433.4 c., due to the general service

                                          33
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

officer’s misinterpretation of the regulation. Consequently, the U.S. Government is not receiving
required funds from those receiving home-to-work transport.

Recommendation 34: Embassy Nairobi should implement procedures to collect charges for
home-to-office transportation from employees who use shuttle services. (Action: Embassy
Nairobi)

        The embassy’s vehicle resources are limited, so it must allocate them efficiently to meet
its needs. Important aspects of motor pool management include judicious employment of
dedicated vehicles and other authorized use, appropriate use of vehicles based on their funding
sources, and periodic updates of the embassy’s vehicle policy memorandum. The embassy’s
vehicle policy is not current and does not include guidelines for other authorized use and the
method of charging for such use when appropriate.

Recommendation 35: Embassy Nairobi should update the embassy vehicle policy memo to
include charging for home-to-office transportation and other authorized use. (Action: Embassy
Nairobi)

       Travel

       The embassy is using E2 travel services, and roles are appropriately assigned in the E2
approval chains. There may be too many approvals, particularly for agencies such as CDC,
which slow down operations.

       Informal Recommendation 25: Embassy Nairobi should examine its E2 Travel Services
       approval chains to be sure that the number and type of approvals are optimal for both
       internal controls and operations.


       Official Residence Furniture and Furnishings

        The inventories for the chief of mission and deputy chief of mission residences are
current, but the embassy routinely changes furniture and furnishings without proper
authorization. Per 15 FAM 762 a., OBO must approve the removal of furniture for
representational residences. Per 15 FAM 733.2 c., occupants may have other furniture and
furnishings, as well as refurbishing work done in their residences at their own expense, with
prior OBO approval. Ignoring this framework negates the work of professional designers and
risks diminishing the quality of representational residences.

Recommendation 36: Embassy Nairobi should review all changes to the chief of mission
residence and obtain retroactive approval for the changes from the Bureau of Overseas Buildings
Operations and guidance on appropriate reimbursement from the chief of mission. (Action:
Embassy Nairobi)

Recommendation 37: Embassy Nairobi should inform the new deputy chief of mission of
regulations governing his residence to avoid errors in the future. (Action: Embassy Nairobi)

                                         34
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Facilities and Safety, Health, and Environmental Management

         The facilities office maintains 89 government-owned and 251 short-term leased
residences. Negotiating maintenance and repairs with landlords is the section’s single biggest
challenge. The prospective new 68-unit housing compound will enable the embassy to drop the
most problematic of the short-term leases. The quality of contractors in Kenya is generally poor,
and the cost of services high. Generator repairs by contractors cost the mission three times as
much as using in-house generator technicians. The few qualified appliance repair contractors are
extremely expensive, and most are not familiar with U.S. brands. Because of the moderate
equatorial climate in Nairobi, none of the residences has heating or cooling, making good sun
screens on windows and doors essential. With the right equipment and space to work, the
facilities office workshops could produce higher quality and less expensive screens for mission
residences. These workshops could be housed in the new warehouse that OIG has recommended
the mission obtain. (See the General Services Office section of this report.)

        The residential square footage of the embassy compound, which is maintained by the
general services office, has approximately tripled in 5 years. ICASS customers complain of
inefficient service: long wait times for initial visits, workers visiting several times for simple
repairs, and a lack of quality control. Local conditions and practices make it challenging for the
housing office to coordinate with landlords and maintain quality control of landlord contractors.
The embassy recently moved its housing office from the general services office to the facilities
office. Facilities managers are implementing a plan to divide maintenance employees into three
teams, each responsible for a housing cluster by location and supervised by an EFM. These
changes will enhance customer service.

       Informal Recommendation 26: Embassy Nairobi should expedite hiring the three new
       eligible family member positions for the facilities management section.

        The section is hiring to fill 22 much-needed LE staff positions. Because the ratio of U.S.
direct hires to LE staff is far below the global average, it is impossible for U.S. direct-hire
supervisors to devote the attention needed to supervisory responsibilities. The OIG team
observed that the in-house janitorial staff lacks U.S. direct-hire supervision.

       Informal Recommendation 27: Embassy Nairobi should provide U.S. employee
       supervision of the janitorial staff.

         Because of challenging local conditions such as flooding and shoddy local construction,
facilities managers receive numerous calls from customers after hours. The calls go directly to a
member of the LE staff who then responds to the customers’ needs. Calls are not screened by a
U.S. direct-hire employee who is able to determine whether there is an emergency, which often
results in unnecessary LE staff overtime.

       Informal Recommendation 28: Embassy Nairobi should include the handling of after-
       hours calls for emergency maintenance among the duties covered in the embassy duty
       officer handbook along with instructions on what constitutes a maintenance emergency
       and what to do when called.

                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Because of competing priorities, the embassy safety, health, and environmental
management program has not held mandated quarterly meetings. Guidance in 15 FAM 933.1-
933.3 requires that every mission have a safety program complete with a standing committee that
meets on a quarterly basis. Without a consistent focus on safety, employees are at risk of injury.

Recommendation 38: Embassy Nairobi should institute a formal safety and health standing
committee that meets on a quarterly basis. (Action: Embassy Nairobi)

Human Resources

        In 2007, the mission employed 224 U.S. direct hires and 527 LE staff members. By
2012, those numbers had grown to 382 U.S. direct hires and 738 LE staff members. The human
resources section is in the process of hiring for 50 new ICASS LE staff positions and manages
the 48 EFM positions. Although this activity is critical, the recruitment and hiring process is
disjointed and far too slow. The section is not performing satisfactorily, and customer service is
deficient.

      The workload within the human resources section is heavy and unbalanced. The staff
managing LE staff recruitment and EFM employment is overburdened. Per 3 FAH-2 H-124.5(3),
a manager should delegate fairly and not overburden key employees.

Recommendation 39: Embassy Nairobi should assess and reorganize the human resources staff
in accordance with Department of State regulations. (Action: Embassy Nairobi)

        The human resources section received low ICASS scores due to their customer's
frustration with untimely and inaccurate responses. (b) (5)
                            about the inefficient services they received from the section. It is a
generally accepted management principle that managers set the standards and measures to gauge
success and accomplish the mission. Providing services that are untimely and lack quality
diminishes mission performance.

Recommendation 40: Embassy Nairobi should implement standards for the quality and
timeliness of responses to human resources inquiries. (Action: Embassy Nairobi)

       Length of Tour

        The embassy serves as a regional platform for more than a dozen U.S. Government
agencies handling a broad array of issues concerning Kenya and East Africa. Because of
Nairobi’s hardship differential, assignments for Department personnel are for 2 years. This
policy is designed to facilitate staffing of positions designated as hardship assignments.
Embassy Nairobi, however, has approved 14 extensions in the last year. Despite being a critical
threat post for terrorism and crime, the mission enjoys a generally good quality of life and
excellent schools for employees with dependents. The embassy has not had a problem in
attracting bidders for assignments. The high turnover rate resulting from 2-year assignments has
significant costs in terms of mission effectiveness, as it takes time for new employees to become
fully productive.

                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Many agencies in the mission retain employees for 3 years and longer to ensure
continuity and sustained effectiveness. A majority (118) of the 210 non-Department employees
assigned to Kenya have a tour of duty for 4 years, 51 employees serve for 3 years or longer;
while less than one-fifth (41 employees) have assignments of just 2 years. The OIG team
estimates that the annual cost savings would be approximately $5 million.

Recommendation 41: The Bureau of Human Resources, in coordination with Embassy Nairobi
and the Bureau of African Affairs, should review the current 2-year tour of duty for Department
of State employees in Nairobi and, if appropriate, change it to 3 years and make an exception to
its current 2-year policy on hardship assignments. (Action: DGHR, in coordination with
Embassy Nairobi and AF)

       Recruitment and Hiring

        The human resources office does not produce satisfactory results in the recruitment and
hiring of LE staff. The office’s written target is for a new employee to begin work 10 weeks
after advertising a position if there is no outside advertising. However, the office’s practice is to
wait until 2 weeks before a position is vacated before advertising the position, which ensures a
minimum 8-week staffing gap and no possibility of overlap with the incumbent. According to the
embassy Web site, only three of 37 hiring actions met the uniform service standards for locally
employed staff services. The remaining actions took two to three times longer than the uniform
service standard of 10 weeks. Per 6 FAH-5 H-032 a., the ICASS service provider is responsible
for the delivery of services for each of the cost centers to which its members subscribe. The OIG
team observed that many LE staff positions remain vacant because of the slow hiring process.

Recommendation 42: Embassy Nairobi should implement procedures to advertise vacant
positions in time to enable overlap between the departing incumbent and the new hire. (Action:
Embassy Nairobi)

Recommendation 43: Embassy Nairobi should adjust its existing hiring timeline to meet
uniform service standards. (Action: Embassy Nairobi)

         The embassy Web site does not contain a clear explanation of the hiring process from
start to finish, although it provides information on the process from vacancy announcement
completion to shortlist submission. The human resources office was able to produce a
comprehensive hiring timeline for the OIG team, but that information has not been shared
throughout the mission. Workload and short staffing contribute to these deficiencies.
Transparency in service provision is an ICASS principle. Lack of understanding of the hiring
process has led to ICASS customer frustration and to diminished credibility of the service
providers.

Recommendation 44: Embassy Nairobi should publish a clear and comprehensive locally
employed staff recruitment and hiring policy describing the process and timelines on its Web
site. (Action: Embassy Nairobi)

        Many clients expressed concern that the human resources office lacked the expertise to
effectively assess applicants’ qualifications. Per the Department’s local employment recruitment
                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

handbook, the supervisor or selecting official may designate a subject matter expert to assist in
the application review process. Without confidence that applications have been accurately
assessed, hiring offices are skeptical of the quality of individuals selected for the positions.

Recommendation 45: Embassy Nairobi should include guidance on subject matter experts in
the review of applicant qualifications as part of its locally employed staff recruitment and hiring
policy. (Action: Embassy Nairobi)

       Eligible Family Member Employment Program

        The EFM employment program is disjointed and does not maximize EFM resources
available to the mission. EFMs wishing to work do not get sufficient information early enough in
the process for it to be useful, and the hiring process is slow and confusing to the hiring office
and the applicants. The EFM program does not survey newly arrived family members about their
skills and interest in work, and it does not request new eligible family member professional
association positions from the Department.

Recommendation 46: Embassy Nairobi should conduct a comprehensive review of its staffing
needs to determine which vacant and new positions might be filled by eligible family members.
(Action: Embassy Nairobi)


       Informal Recommendation 29: Embassy Nairobi should designate an eligible family
       member coordinator with the experience and authority to coordinate all aspects of the
       eligible family member employment program.

       Informal Recommendation 30: Embassy Nairobi should implement a process to assess
       the employment interests and skill sets of all incoming eligible family members.

       Informal Recommendation 31: Embassy Nairobi should, depending on mission needs
       and skills available, work with the Department to establish more Eligible Family Member
       Professional Associate Program positions.

         EFM recruitment and hiring processes are not clear. The embassy Web site contains links
to information from the Bureau of Human Resources, but there is no document that clearly
details the process. A clear explanation would aid supervisors and job seekers. The current EFM
program is weakened by lack of a clear explanation of the mission’s policy and process for the
creation of EFM positions, as well as for recruitment and hiring.

Recommendation 47: Embassy Nairobi, in coordination with the Bureau of Human Resources,
should publish a clear and comprehensive eligible family member recruitment and hiring policy
on its Web site that describes the hiring process and timelines. (Action: Embassy Nairobi, in
coordination with DGHR)

       Newly hired EFMs are sometimes not paid on time due to disorganized procedures for
paying new employees. The result is frustrated employees and loss of productivity.

                                          38
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 48: Embassy Nairobi, in coordination with the Bureau of Human Resources,
should implement proper and timely payment procedures for eligible family member employees.
(Action: Embassy Nairobi, in coordination with DGHR)

       Comprehensive Review and Succession Planning

        The grades and ranks of both U.S. direct-hire and LE staff positions have not appreciably
changed since the last inspection. At the same time, the embassy has added 50 new LE ICASS
positions in the last 2 years, with a projected additional 20 to be hired by 2014. Several key LE
staff are due to retire in the next 5 years, but the embassy has not implemented succession
planning. In view of the growth in staff, the embassy would benefit from conducting a
comprehensive review of Embassy Nairobi staffing and succession planning that includes
possible double encumbering of key LE staff positions.

       Informal Recommendation 32: Embassy Nairobi should conduct a full staffing review
       of all U.S. direct-hire and locally employed staff positions and implement a succession
       plan.

       Performance Evaluations

         In 2011, 34 LE staff performance evaluations were delinquent. In accordance with 3
FAM 7584, before a within-grade increase may be authorized, the supervisor must certify in
writing that the employee’s performance is fully successful or better. However, the OIG team
observed that the embassy authorized some within-grade increases for employees in the absence
of the required certificate. Per 3 FAH-2 H-312 b.(6)(a), supervisors need to prepare objective and
timely performance reports. When employee performance reports are delayed, employee morale
suffers.

Recommendation 49: Embassy Nairobi should implement controls to authorize within-grade
increases only with a supervisor’s certification that the employee’s performance is fully
successful or better. (Action: Embassy Nairobi)

Recommendation 50: Embassy Nairobi should include a work requirement for all supervisors to
complete performance reviews on time and rate the supervisors accordingly. (Action: Embassy
Nairobi)

       Safe-havened Families

         The embassy currently provides safe-haven for eight families of employees who
volunteered for service in Afghanistan, Iraq or Pakistan. One safe-havened spouse is the
recipient of the 2012 Avis Bohlen award for advancing American interests by her relations with
the American and foreign communities in Kenya. The families received embassy concurrence on
their status before the arrival of the current Ambassador, who questioned the safe-havening
families in Nairobi, and informed the OIG team that he agreed only under pressure from
Washington to allow the families to remain at post. After relenting, the Ambassador told safe-
havened family members that he personally wanted them gone, and that they would be the last to
receive embassy support in a crisis. The Ambassador also directed that, if safe-havened families
                                         39
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

did not reside in one of the embassy’s residential gated compounds, they would have to move to
one. In addition, he required that each of the families obtain a sponsor from the spouse’s work
unit, even if the family had been residing in Nairobi for a long time. The Ambassador’s rationale
for these requirements was to enhance the security of the families, but in doing so he has created
a separate security standard in contravention of existing Department standards for residential
security. Although the Department’s policy on safe-havening families states that this option must
be negotiated on a case-by-case basis by the employee taking the hardship assignment and the
losing post, the aim is clearly to incentivize and facilitate employees to volunteer for these very
challenging assignments. The Ambassador’s treatment of these safe-havening families continues
to undermine that objective by imposing additional and unnecessary requirements on safe-
havening families.

Recommendation 51: Embassy Nairobi, in coordination with the Bureau of Human Resources
and the Bureau of African Affairs, should provide equitable support to safe-havening families
and not impose any additional requirements that create a double security standard or undermine
the Department of State’s aim of encouraging employees to volunteer for assignments in
Afghanistan, Iraq, and Pakistan. (Action: Embassy Nairobi, in coordination with DGHR and
AF)

       U.S. Agency for International Development Personnel Status

        All USAID employees except the two mission directors and one deputy director are
notified to the Kenyan Government as administrative and technical personnel, rather than
diplomatic personnel. Per 11 State 98069, dated September 29, 2011, USAID professional,
direct-hire employees are to be treated in the same manner as comparable State Department
personnel at post and shall be accredited to the diplomatic mission pursuant to standard
accreditation procedures, and given diplomatic titles. Noncompliance with this guidance leaves
USAID direct-hire employees vulnerable to prosecution under local laws and constitutes
inequitable treatment. The Bureau of Human Resources coordinates the assignment of
diplomatic and consular titles for Department employees overseas and for employees of other
U.S. Government agencies subject to chief of mission authority.

Recommendation 52: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should provide guidance to Embassy Nairobi on bringing its accreditation
procedures into compliance with 11 State 98069. (Action: DGHR, in coordination with AF)

       Requested Staff Positions

        The embassy’s FY 2014 MRR requests an additional FS-03 political officer position.
The principal justification in the MRR is that devolution of local authority from 8 provinces to
47 counties will require more internal travel. The OIG team believes that the section can manage
its workload by reallocating responsibilities among existing staff as necessary.

        The embassy’s FY 2014 MRR also requests an additional FS-03 economic officer
position. The OIG team does not see a strong justification for the position, with its associated
considerable expense to the Department. Although the section often performs overtime work, a
substantial amount is elective. The embassy plans to hire an eligible family member professional
                                          40
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

associate to manage the environment, science, technology, and health portfolio in the economic
section, replacing a professional associate who left the section last year. The MRR also requests
an additional LE staff position.

       Informal Recommendation 33: Embassy Nairobi should reassess economic section
       staffing requirements after hiring a professional associate and an additional locally
       employed staff member and evaluating workload for 1 year.


       Locally Employed Staff Committee

       The embassy’s LE staff committee is a conduit for information exchange between
mission management and the broader LE staff community. Principles of good management call
for open communication between management and staff. The committee facilitates constructive
dialogue and encourages a positive, productive, and open working environment.

        The LE staff committee rarely meets with the current Ambassador, deputy chief of
mission, or management counselor. The committee described the regular town hall meetings that
took place before May 2011. There is usually an agenda for committee meetings, as well as
minutes of the discussion, but the committee does not distribute this information to the wider LE
staff community.

        In accordance with 06 State 149813, embassies should communicate as freely as
practicable with LE staff; to anticipate problems and concerns; and to formulate plans to resolve
them effectively. The OIG team deems monthly scheduled meetings as necessary to keep the line
of communications open between management and the LE staff community.

Recommendation 53: Embassy Nairobi should establish monthly meetings for the deputy chief
of mission or the management counselor with the locally employed staff committee. (Action:
Embassy Nairobi)

Recommendation 54: Embassy Nairobi should distribute the agenda and minutes of its
meetings with the locally employed staff committee to the locally employed staff via Department
of State email. (Action: Embassy Nairobi)

        Consulting mission LE staff organizations prior to taking action or implementing
procedures that affect the community demonstrates mission management’s consideration of LE
staff views.

Equal Employment Opportunity

        The embassy’s Equal Employment Opportunity (EEO) program is satisfactory, but could
be strengthened. Throughout the mission, the EEO counselors are not easily identifiable. The
OIG team found it difficult to locate an EEO bulletin board on the embassy compound. EEO
information is located in the USAID annex building outside of the human resources section, but
many embassy employees work in the chancery and do not visit the annex. Those employees do
have limited access to EEO information via the embassy Web site. In accordance with 29 CFR
                                         41
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

1614.102(b)(7), an EEO bulletin board with the current information should be displayed in a
noticeable location for all employees. There are two EEO counselors and two EEO LE staff
liaisons. The embassy reported 10 EEO cases in 2 years. In 2010, the Office of Civil Rights
conducted embassywide training on EEO and sexual harassment.

Recommendation 55: Embassy Nairobi should display a bulletin board with current Equal
Employment Opportunity information in all embassy buildings. (Action: Embassy Nairobi)

       Federal Women’s Program

       During the OIG inspection the embassy’s Federal Women’s Program was nonexistent,
and the mission had not designated a Federal Women’s Program coordinator. Executive Order
11478 and 29 CFR §1614.102 (b) (3) make the status of women an integral part of EEO.
According to 3 FAM 1514.2 b., the coordinator of the Federal Women’s Program must be
announced to all mission employees. The OIG team did not observe information on the embassy
compound identifying the coordinator.

Recommendation 56: Embassy Nairobi, in coordination with the Office of Civil Rights, should
implement the Federal Women’s Program. (Action: Embassy Nairobi, in coordination with
S/OCR)

Financial Management

        The financial management office administers roughly twice as much funding in 2012 as it
did in 2007 and does it extremely well. Along with Embassy Cairo’s finance center, it is a pilot
post for a Department of Defense crosswalk. The Department of Defense funds one LE staff
position in the office, and the enhanced coordination has resulted in a 90 percent decrease in the
number of transactions rejected by U.S. Government finance systems. Department-USAID
consolidation is on track but hampered by different and incompatible automated systems. Section
leadership plans for professional development of staff and gets high marks for customer service.

       Informal Recommendation 34: Embassy Nairobi should tie its professional development
       program directly to locally employed staff performance management and evaluations.

        Three senior employees from the section will retire in the next 3 years. Currently, all 18
LE staff in the section’s 6 subordinate offices report to both the financial management officer
and his deputy through a senior LE staff financial specialist, who is also a certifying officer. The
section’s expanded workload, resulting from mission growth, required this senior LE staff
employee to work more overtime than almost any other LE staff in the mission in 2011. The
section’s organizational structure is no longer appropriate. At the same time there is also a need
for more direct supervision of LE staff.

       Informal Recommendation 35: Embassy Nairobi should begin succession planning for
       the financial management section, allowing for double encumbrance of key positions for
       a period of training of the successors.


                                          42
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 36: Embassy Nairobi should change the personnel structure
       of the financial management section to allow U.S. direct-hire employees to exercise
       supervision of locally employed staff and should balance the workload in the financial
       section and delegate authority and responsibility farther down the management chain.

       International Cooperative Administrative Support Services

        The financial management officer has reinvigorated ICASS processes by establishing a
budget committee that meets monthly and by bringing the ICASS council membership into
compliance with regulations. The ICASS temporary duty billing policy is problematic. Because
of the relatively low salary costs in Kenya, the daily ICASS charge to each temporary duty
employee is $8. Because the ICASS threshold for billing temporary duty employees is $500, the
embassy cannot begin billing until the employee has been at post for 62 days. Some agencies
have large numbers of personnel whose temporary duty assignments are less than 62 days and
thus do not pay into ICASS. The embassy uses its own resources to track temporary duty
personnel.

Information Management

               The information management office is meeting the mission’s information
technology requirements, despite significant technical and staffing challenges as well as
extenuating circumstances imposed by embassy leadership. Senior information management staff
members have strong managerial skills and have been called upon to fill vacancies or provide
long-term assistance elsewhere in the management section. As a result, the operation of the
office has been strained. The OIG team counseled senior information management staff members
about ways to decrease the amount of time spent outside information management duties so that
leadership elements such as supervisory and planning functions will be managed more efficiently
and accomplished with less stress. The OIG team counseled the information management staff
on several other issues including coordinating better with the management section for earlier
notice of work space changes requiring computer and telephone support, better recording of
contingency plan testing, and media labeling.

        The embassy’s information management program manages an extensive information
technology platform including classified and unclassified networks, a dedicated Internet network,
the Diplomatic Post Office, the courier pouch hub, local and pouch mail service, emergency and
administrative radio networks, and telephone services for the embassy compound buildings and
residences of senior staff members. Supporting embassy information technology requirements is
complicated by local infrastructure that suffers from almost daily electricity and communication
outages. The American staffing in the information management section has remained the same
despite large increases to overall mission staffing in the last 2 years and a constant flow of
visitors that averages 200 people on any given day. The embassy has requested another
American information management position in the FY 2014 Mission Resource Request, a
request the OIG team strongly endorses.
        Mission Leadership Challenge

       Very soon after the Ambassador’s arrival in May 2011, he broadcast his lack of
confidence in the information management staff. Because the information management office
                                         43
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

could not change the Department’s policy for handling Sensitive But Unclassified material, he
assumed charge of the mission’s information management operations. He ordered a commercial
Internet connection installed in his embassy office bathroom so he could work there on a laptop
not connected to the Department email system. He drafted and distributed a mission policy
authorizing himself and other mission personnel to use commercial email for daily
communication of official government business. During the inspection, the Ambassador
continued to use commercial email for official government business. The Department email
system provides automatic security, record-keeping, and backup functions as required. The
Ambassador’s requirements for use of commercial email in the office and his flouting of direct
instructions to adhere to Department policy have placed the information management staff in a
conundrum: balancing the desire to be responsive to their mission leader and the need to adhere
to Department regulations and government information security standards. The Ambassador
compounded the problem on several occasions by publicly berating members of the staff,
attacking them personally, loudly questioning their competence, and threatening career-ending
disciplinary actions. These actions have sapped the resources and morale of a busy and
understaffed information management staff as it supports the largest embassy in sub-Saharan
Africa.

       Authorized Automated Information Systems

        The Ambassador uses a government-owned laptop that is not physically or electronically
connected to the Department’s OpenNet network. Authorized Department OpenNet email
systems are available on the Ambassador’s office desktop. According to 12 FAM 544.3 and 11
State 73417 (from the Assistant Secretary for Diplomatic Security to the Ambassador), it is the
Department’s general policy that normal day-to-day operations be conducted on an authorized
information system, which has the proper level of security controls. The use of unauthorized
information systems increases the risk for data loss, phishing, and spoofing of email accounts, as
well as inadequate protections for personally identifiable information. The use of unauthorized
information systems can also result in the loss of official public records as these systems do not
have approved record preservation or backup functions. Conducting official business on non-
Department automated information systems must be limited to only maintaining communications
during emergencies.

Recommendation 57: Embassy Nairobi should cease using commercial email to process
Department information and use authorized Department automated information systems for
conducting official business. (Action: Embassy Nairobi)

       Mobile Devices Management

        The information systems center has written procedures in place for authorizing, issuing,
and tracking laptop computers, (b) (5)




                                         44
                             SENSITIVE BUT UNCLASSIFIED
                 (
                 b                   SENSITIVE BUT UNCLASSIFIED
                 )
                 (
(b) (5)
                 5
                 )




   Recommendation 58: (b) (5)


   Recommendation 59:( (b) (5)
  (b)(5)(b)(6)                 (6)

                     (b) (5)
 (b) (5)




           Informal Recommendation 37: (b) (5)



           Switchboard

           The embassy switchboard receives hundreds of outside calls daily, primarily from callers
   who are interested in contacting the consular section. The procedure for the switchboard
   operators is to inquire about the caller’s general business, and then direct the call to the
   appropriate telephone extension in the consular section. However, many of the calls to the
   consular section go unanswered and callers continue to call back to the switchboard in
   frustration. The OIG team confirmed that 104 such call-backs were made over a period of a day
   and a half. Unanswered telephone calls result in complaints from clients to the embassy and
   reflect badly on the embassy in general.

           Informal Recommendation 38: Embassy Nairobi should implement a coordinated set of
           procedures between the consular section and the switchboard to improve customer
           service for outside callers.




                                                 45
                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The community liaison office staff includes a full-time coordinator, a full-time assistant
coordinator, and a newsletter editor who works 20 hours per week. Two of the three have
previous community liaison office experience and have received training. Through emails and
the newsletter, the office provides regular and timely updates to the embassy community
regarding quality of life issues. The Work and Quality of Life questionnaires gave the office high
scores. The community liaison office has also helped to improve the timely identification of
sponsors for incoming employees, a task made more challenging by the variety of U.S. agencies
represented in the embassy. As a result, it coordinates more effectively with military offices. It
has also instituted an after-action rating process in which employees and families complete a
survey on their sponsorship experience. Embassy community members told the OIG team of
their satisfaction with and appreciation for the newsletter, which usually exceeds 30 pages. The
coordinator meets regularly with the Ambassador, deputy chief of mission, and management
officers.

       Due to the physical layout of the office, the community liaison office does not have a
dedicated private office where individuals with personal concerns can meet with a community
liaison office representative.

       Informal Recommendation 39: Embassy Nairobi should partition a portion of the
       community liaison office into a private office.

Health Unit

        The health unit’s client base has doubled in the past 5 years. Embassy Nairobi is about
the same size as Embassy Cairo in terms of U.S. direct hires, but it has half as many medical
staff; has medically evacuated twice as many patients; admitted 25 patients to local hospitals
versus no local admittances in Cairo; and has conducted 25 percent more medical clearance
examinations. The embassy has requested one more Foreign Service health professional position.
The embassy has reallocated space in the chancery to create more examination rooms in the
health unit, and the health unit has adjusted its opening hours to try to manage its workload.
However, client feedback, as evidenced in low ICASS survey scores, indicates that health
services are not meeting client needs.

       Informal Recommendation 40: Embassy Nairobi should assess client needs for health
       services and make appropriate changes.

       Inspectors observed that medical personnel are spending time on administrative functions
such as travel arrangements and vouchers. Administrative functions should be performed by
administrative personnel.

       Informal Recommendation 41: Embassy Nairobi should assess the workload of the staff
       in the health unit and hire additional administrative personnel, if needed.

                                         46
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Overseas Schools

       Most children of embassy employees attend (b)(5)(b)(6)


                                                                              It has the reputation
of being one of the best schools in Africa and is a major attraction for serving in Nairobi.

        Established under the auspices of the U.S. and Canadian embassies, the two missions
appoint the board of governors, which is the school’s governing body. A separate board of
directors includes a representative of the U.S. Ambassador as a voting member, as well as
several embassy employees elected by the school community. The school receives funding from
the Office of Overseas Schools and works closely with the regional security officer. The school
follows good security practices.

         Most embassy families are satisfied with the education and environment of the school,
although some parents think that the school’s recent emphasis on physical expansion has resulted
in less focus on the educational element. Another criticism the OIG team heard was that the
school’s online material promises support for students with “mild special needs” when, in fact, it
is unable to deliver support in many cases. The school is aware of these criticisms, and the
superintendent is taking steps to address them.
       (b)(5)(b)(6)             is the second most frequented school with (b)(5)(b)(6)

   E mbassy families are very satisfied with the school, (b)(5)(b)(6)
                                                                              is also working with
the regional security officer and is making investments to improve its security environment.

       Embassy children attend several other schools in Nairobi, one of which specializes in
providing support for children with special needs. Several parents are also home-schooling
children.

Commissary and Recreation Association

       The employee association provides a small store in the chancery and a larger one at the
nearby housing compound, a cafeteria in the chancery, and a small restaurant on the housing
compound. It gets high marks from the Department for good budgeting and internal controls, and
from clients for providing what they want. The OIG team observed that the management section
exercises adequate oversight of the association and that the board is productive and collegial.




                                          47
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The embassy’s management controls are generally adequate, as certified in the annual
chief of mission statement. Management controls include perforating paid invoices, spot checks
of vouchers by a U.S. direct-hire employee, a disciplined cashier operation, controls on fuel for
vehicles, inventory control, and commercial bank accommodation exchange. There are several
incorrect procedures that the embassy needs to change, but the most challenging management
control is the accountability and control of goods at the substandard warehouse a 2-hour drive
from the embassy.

       Informal Recommendation 42: Embassy Nairobi should plan for a U.S. direct-hire
       employee to have a permanent presence at its new warehouse facility.

        Purchase cardholders in the procurement section are not all proficient at reconciling
monthly purchase card statements and resolving potential transaction disputes. Per 4 FAM 455.3,
these responsibilities rest with the purchase cardholder. If the cardholder lacks the knowledge
and skills to resolve potential disputes, the embassy may pay erroneous charges.

Recommendation 60: Embassy Nairobi should train all purchase cardholders in reconciling
statements and resolving potential transaction disputes. (Action: Embassy Nairobi)

Official Residence

       Contracts for household staff at the chief of mission residence do not specify work hours.
The contracts state that transportation will be provided to or from the employee’s residence when
the employee is called upon to work late, which is any time after 8 p.m. or before 6 a.m. Per 3
FAH-1 H-3252.1 a., the officer should treat his/her household staff fairly and provide
employment conditions that conform to local law and customs in the host country. Without a
clear work schedule, employees are subject to unplanned or excessive work hours.

Recommendation 61: Embassy Nairobi should bring official residence staff contracts into
compliance with Department of State regulations. (Action: Embassy Nairobi)

      Stocks of representational alcohol at the chief of mission residence are not clearly
marked, and physical separation between personal and representational stocks is minimal.

       Informal Recommendation 43: Embassy Nairobi should clearly label representational
       alcohol in representational residences.

       Inventories of representational alcohol from the chief of mission residence indicate
missing items. The OIG team observed that these items likely were mixed with personal stock.
Inventories are kept and signed by official residence local staff.

       Informal Recommendation 44: Embassy Nairobi should reconcile representational
       alcohol inventories at the chief of mission residence.


                                         48
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Informal Recommendation 45: Embassy Nairobi should provide more U.S. direct-hire
        oversight of representational alcohol stocks at the chief of mission residence.

Representation

         The embassy is paying the embassy association store for purchases of alcohol other than
wine, then being reimbursed as the Ambassador uses the supplies for representation. When the
Ambassador selects alcohol at the association store for representation purposes, the association
bills the embassy for the purchase. When the Ambassador submits a representation voucher, the
cost of the alcohol on the voucher is marked for reimbursement to the association. Per 3 FAM
3246.3-3, bulk purchases to cover several future representation events, except for invitation cards
and American wine, must be financed by the host or other officer and reimbursed appropriately.
Embassy Nairobi’s current procedure is not in compliance with regulations.

Recommendation 62: Embassy Nairobi should bring its policy of funding representational
purchases into compliance with Department of State regulations, including guidance on
reimbursing the employee association for any outstanding bills. (Action: Embassy Nairobi)

Gifts

         Embassy Nairobi does not have a standard operating procedure for disposition of gifts or
a designated gifts officer. Per 3 FAM 4122.1, the designated office for receiving gifts is the
embassy management officer. Because gifts are used and disposed of in accordance with
regulations governing property management and disposal, management officers often delegate
this role to the general services office. With no designated gifts officer and no clear standard
operating procedures for gifts disposition, the embassy is out of compliance with regulations and
gift recipients are at risk of ethics violations.

Recommendation 63: Embassy Nairobi should revise its designation of responsibilities
management policy to identify a gifts officer to maintain gift logs and dispose of gifts in
accordance with Department of State regulations. (Action: Embassy Nairobi)

Recommendation 64: Embassy Nairobi should publish a gifts policy. (Action: Embassy
Nairobi)

Consular Management Controls

        Access to the consular section is controlled. Appropriate officers are reviewing visa
adjudications at all levels. The section is also maintaining appropriate inventories. The consular
shared tables are up to date. The accountable consular officer supervises cashier operations
correctly without discrepancies. Line-of-site supervision of the consular cashier is restricted, but
given the configuration of the section there is no way to improve it. DNA testing procedures are
tightly monitored with very good chain-of-possession controls in place.

        Cases containing passports and other personally identifiable information are, for the most
part, locked in safes or bar-locked cabinets at the close of business each night. The OIG team

                                          49
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

counseled section management on the advantage of assigning officers on a rotating basis to
check desks at the close of business.

        The consul general appointed a representative to act as the consular point of contact for
ICASS matters and to work with the management section on matters relating to funding consular
operations. After much hard work, the consular section has developed a smooth working
relationship with the embassy’s financial management center and has a clear ability to track
fiscal questions.




                                         50
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Nairobi, in coordination with the Bureau of African Affairs,
should determine the status of the mission essential task exercise relative to the Department-
mandated Mission Resource Request. (Action: Embassy Nairobi, in coordination with AF)

Recommendation 2: Embassy Nairobi should implement a system for the daily screening of
classified front channel messages, including action items and messages of relevance to Kenyan
and U.S. interests in the region, and provide these to the Ambassador. (Action: Embassy
Nairobi)

Recommendation 3: Embassy Nairobi, in coordination with the Somalia Unit and the Bureau
of African Affairs, should convene a working group on Kenyan engagement and interests in
Somalia that would include representatives of the Somalia Unit and appropriate elements of
Embassy Nairobi, including the Defense attaché office, and would focus on enhancing
collaborative activities between the two missions. (Action: Embassy Nairobi, in coordination
with the Somalia Unit and AF)

Recommendation 4: Embassy Nairobi, in coordination with the Bureau of African Affairs,
should consult with Washington agencies to develop a political reporting plan that contains
specific reports, deadlines, and individual staff responsibilities. (Action: Embassy Nairobi, in
coordination with AF)

Recommendation 5: Embassy Nairobi should, in coordination with the Bureau of Democracy,
Human Rights, and Labor, implement Leahy vetting procedures that meet the Department’s
requirements. (Action: Embassy Nairobi, in coordination with DRL)

Recommendation 6: The Bureau of Human Resources, in coordination with Embassy Nairobi,
should eliminate the Kiswahili language requirement for the political-military officer position.
(Action: DGHR, in coordination with Embassy Nairobi)

Recommendation 7: The Bureau of Human Resources, in coordination with the Bureau of
Democracy, Human Rights, and Labor, the Bureau of African Affairs, and Embassy Nairobi,
should reclassify the labor officer position as an economic-labor officer position without the
regional designation. (Action: DGHR, in coordination with DRL, AF, and Embassy Nairobi)

Recommendation 8: Embassy Nairobi, in coordination with the Somalia Unit, should seek the
necessary approvals from the Bureaus of Human Resources, International Organization Affairs,
and African Affairs, for the next officer assigned to position 92-001552 to rotate into the Somalia
Unit during his or her assignment. (Action: Embassy Nairobi, in coordination with the Somalia
Unit)

Recommendation 9: Embassy Nairobi should request that the Government of Kenya furnish
transparent and complete reporting of its financial support for the country’s national HIV/AIDS
response programs. (Action: Embassy Nairobi)



                                          51
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Nairobi should report annually to the Department of State on
the Government of Kenya’s financial performance against commitments set down in the
partnership framework implementation plan. (Action: Embassy Nairobi)

Recommendation 11: Embassy Nairobi, in coordination with the Office of the U.S. Global
AIDS Coordinator and Office of the Executive Director for the Global Health Initiative, should
clarify the status of the Let’s Live campaign, including its relation to the Global Health Initiative,
and issue programming guidance to staff with the necessary interagency approvals. (Action:
Embassy Nairobi, in coordination with S/GAC and S/GHI)

Recommendation 12: Embassy Nairobi should institute regular meetings of sections and
agencies conducting assistance activities to discuss communications strategy and ways to
highlight U.S. activities in Kenya. (Action: Embassy Nairobi)

Recommendation 13: Embassy Nairobi should implement a strategy to integrate the
Ambassador more closely into public diplomacy activities to promote U.S. policy and publicize
U.S. assistance. (Action: Embassy Nairobi)

Recommendation 14: Embassy Nairobi should implement a social media strategy that focuses
its efforts on a more limited number of sites that the embassy has a capacity to update and
maintain. (Action: Embassy Nairobi)

Recommendation 15: Embassy Nairobi should register all of its social media sites in the
Information Technology Asset Baseline and include terms of use on the sites. (Action: Embassy
Nairobi)

Recommendation 16: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs and Embassy Nairobi, should eliminate the 2/2 French
language designation for the regional information resource officer position in Nairobi. (Action:
DGHR, in coordination with IIP and Embassy Nairobi)

Recommendation 17: Embassy Nairobi should close out the open grants to the previous
educational advising center. (Action: Embassy Nairobi)

Recommendation 18: Embassy Nairobi should implement a plan to enable prospective
students to access the advising center. (Action: Embassy Nairobi)

Recommendation 19: Embassy Nairobi, in coordination with the Somalia Unit and the Bureau
of African Affairs, should implement a formal and practical arrangement for the Somalia Unit
and Embassy Nairobi to conduct public diplomacy activities aimed at Somalia refugees and
residents in Kenya. (Action: Embassy Nairobi, in coordination with the Somalia Unit and AF)

Recommendation 20: Embassy Nairobi should give a second locally employed staff member
in the public affairs section grants training and the opportunity to prepare grants on an occasional
basis in order to maintain grants expertise. (Action: Embassy Nairobi)




                                          52
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 21: Embassy Nairobi should develop the capacity outside the public affairs
section to handle audiovisual and photographic requirements for nonpublic diplomacy events.
(Action: Embassy Nairobi)

Recommendation 22: The Bureau of Consular Affairs, in coordination with the Bureau of
African Affairs and Embassy Nairobi, should review consular responsibilities for Somalia and
determine whether to concentrate them in Nairobi’s consular section. (Action: CA, in
coordination with AF and Embassy Nairobi)

Recommendation 23: Embassy Nairobi should update all position descriptions for locally
employed staff in the consular section to reflect their current duties. (Action: Embassy Nairobi)

Recommendation 24: Embassy Nairobi should redistribute the operational oversight
responsibilities in the consular section among the supervisory consular officers. (Action:
Embassy Nairobi)

Recommendation 25: Embassy Nairobi should implement a comprehensive support plan for
Kisumu that includes at least quarterly visits by a U.S. direct-hire International Cooperative
Administrative Support Services provider. (Action: Embassy Nairobi)

Recommendation 26: Embassy Nairobi should expedite the hiring of a Kisumu housing
manager. (Action: Embassy Nairobi)

Recommendation 27: Embassy Nairobi should implement a plan to consistently deliver cash
replenishments to Kisumu’s cashier. (Action: Embassy Nairobi)

Recommendation 28: Embassy Nairobi should send appropriate International Cooperative
Administrative Support Services staff to Kisumu to establish blanket purchase agreements with
vendors that are responsive to Kisumu needs. (Action: Embassy Nairobi)

Recommendation 29: The Bureau of African Affairs, in coordination with the Office of the
Legal Adviser, should implement a memorandum of understanding with the U.S. Agency for
International Development governing decisions on the use of the Nairobi U.S. Agency for
International Development annex building and on building operating costs, in accordance with
existing Department of State guidance. (Action: AF, in coordination with L)

Recommendation 30: Embassy Nairobi should cease work on the memorial at the chief of
mission residence and seek Department of State authorization for any alterations. (Action:
Embassy Nairobi)

Recommendation 31: The Bureau of Overseas Buildings Operations should fund a suitable
warehouse and maintenance facility for Embassy Nairobi and provide the embassy with a
relevant funding timeline. (Action: OBO)

Recommendation 32: Embassy Nairobi should comply with the Department of State
requirement for drivers to be medically certified annually. (Action: Embassy Nairobi)

Recommendation 33: Embassy Nairobi should discontinue shuttle service to Rosslyn Ridge or
offer the service to all employees. (Action: Embassy Nairobi)
                                               53
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 34: Embassy Nairobi should implement procedures to collect charges for
home-to-office transportation from employees who use shuttle services. (Action: Embassy
Nairobi)

Recommendation 35: Embassy Nairobi should update the embassy vehicle policy memo to
include charging for home-to-office transportation and other authorized use. (Action: Embassy
Nairobi)

Recommendation 36: Embassy Nairobi should review all changes to the chief of mission
residence and obtain retroactive approval for the changes from the Bureau of Overseas Buildings
Operations and guidance on appropriate reimbursement from the chief of mission. (Action:
Embassy Nairobi)

Recommendation 37: Embassy Nairobi should inform the new deputy chief of mission of
regulations governing his residence to avoid errors in the future. (Action: Embassy Nairobi)

Recommendation 38: Embassy Nairobi should institute a formal safety and health standing
committee that meets on a quarterly basis. (Action: Embassy Nairobi)

Recommendation 39: Embassy Nairobi should assess and reorganize the human resources
staff in accordance with Department of State regulations. (Action: Embassy Nairobi)

Recommendation 40: Embassy Nairobi should implement standards for the quality and
timeliness of responses to human resources inquiries. (Action: Embassy Nairobi)

Recommendation 41: The Bureau of Human Resources, in coordination with Embassy
Nairobi and the Bureau of African Affairs, should review the current 2-year tour of duty for
Department of State employees in Nairobi and, if appropriate, change it to 3 years and make an
exception to its current 2-year policy on hardship assignments. (Action: DGHR, in coordination
with Embassy Nairobi and AF)

Recommendation 42: Embassy Nairobi should implement procedures to advertise vacant
positions in time to enable overlap between the departing incumbent and the new hire. (Action:
Embassy Nairobi)

Recommendation 43: Embassy Nairobi should adjust its existing hiring timeline to meet
uniform service standards. (Action: Embassy Nairobi)

Recommendation 44: Embassy Nairobi should publish a clear and comprehensive locally
employed staff recruitment and hiring policy describing the process and timelines on its Web
site. (Action: Embassy Nairobi)

Recommendation 45: Embassy Nairobi should include guidance on subject matter experts in
the review of applicant qualifications as part of its locally employed staff recruitment and hiring
policy. (Action: Embassy Nairobi)

Recommendation 46: Embassy Nairobi should conduct a comprehensive review of its staffing
needs to determine which vacant and new positions might be filled by eligible family members.
(Action: Embassy Nairobi)
                                             54
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 47: Embassy Nairobi, in coordination with the Bureau of Human
Resources, should publish a clear and comprehensive eligible family member recruitment and
hiring policy on its Web site that describes the hiring process and timelines. (Action: Embassy
Nairobi, in coordination with DGHR)

Recommendation 48: Embassy Nairobi, in coordination with the Bureau of Human
Resources, should implement proper and timely payment procedures for eligible family member
employees. (Action: Embassy Nairobi, in coordination with DGHR)

Recommendation 49: Embassy Nairobi should implement controls to authorize within-grade
increases only with a supervisor’s certification that the employee’s performance is fully
successful or better. (Action: Embassy Nairobi)

Recommendation 50: Embassy Nairobi should include a work requirement for all supervisors
to complete performance reviews on time and rate the supervisors accordingly. (Action:
Embassy Nairobi)

Recommendation 51: Embassy Nairobi, in coordination with the Bureau of Human Resources
and the Bureau of African Affairs, should provide equitable support to safe-havening families
and not impose any additional requirements that create a double security standard or undermine
the Department of State’s aim of encouraging employees to volunteer for assignments in
Afghanistan, Iraq, and Pakistan. (Action: Embassy Nairobi, in coordination with DGHR and
AF)

Recommendation 52: The Bureau of Human Resources, in coordination with the Bureau of
African Affairs, should provide guidance to Embassy Nairobi on bringing its accreditation
procedures into compliance with 11 State 98069. (Action: DGHR, in coordination with AF)

Recommendation 53: Embassy Nairobi should establish monthly meetings for the deputy
chief of mission or the management counselor with the locally employed staff committee.
(Action: Embassy Nairobi)

Recommendation 54: Embassy Nairobi should distribute the agenda and minutes of its
meetings with the locally employed staff committee to the locally employed staff via Department
of State email. (Action: Embassy Nairobi)

Recommendation 55: Embassy Nairobi should display a bulletin board with current Equal
Employment Opportunity information in all embassy buildings. (Action: Embassy Nairobi)

Recommendation 56: Embassy Nairobi, in coordination with the Office of Civil Rights,
should implement the Federal Women’s Program. (Action: Embassy Nairobi, in coordination
with S/OCR)

Recommendation 57: Embassy Nairobi should cease using commercial email to process
Department information and use authorized Department automated information systems for
conducting official business. (Action: Embassy Nairobi)



                                         55
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 58: (b) (5)


Recommendation 59: (b) (5)


Recommendation 60: Embassy Nairobi should train all purchase cardholders in reconciling
statements and resolving potential transaction disputes. (Action: Embassy Nairobi)

Recommendation 61: Embassy Nairobi should bring official residence staff contracts into
compliance with Department of State regulations. (Action: Embassy Nairobi)

Recommendation 62: Embassy Nairobi should bring its policy of funding representational
purchases into compliance with Department of State regulations, including guidance on
reimbursing the employee association for any outstanding bills. (Action: Embassy Nairobi)

Recommendation 63: Embassy Nairobi should revise its designation of responsibilities
management policy to identify a gifts officer to maintain gift logs and dispose of gifts in
accordance with Department of State regulations. (Action: Embassy Nairobi)

Recommendation 64: Embassy Nairobi should publish a gifts policy. (Action: Embassy
Nairobi)




                                         56
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Nairobi should request that the U.S. Africa
Command’s Combined Joint Task Force for the Horn of Africa provide after action reports on its
civil affairs projects in Kenya.

Informal Recommendation 2: Embassy Nairobi should revise its economic reporting plan to
include specific reports, deadlines, and individual staff responsibilities.

Informal Recommendation 3: Embassy Nairobi should require law enforcement agency
representatives to report to the law enforcement working group basic information on all proposed
and approved law enforcement and counterterrorism training and to maintain a log of such
training courses as a reference source.

Informal Recommendation 4: Embassy Nairobi should reprogram the public affairs section’s
locally employed secretarial position as a professional associate or eligible family member
position.

Informal Recommendation 5: Embassy Nairobi should institute more frequent all-hands
meetings of the public diplomacy staff and compile a joint calendar of upcoming public
diplomacy events.

Informal Recommendation 6: Embassy Nairobi should include contributions from all sections
and agencies on the embassy Web site.

Informal Recommendation 7: Embassy Nairobi should include clear links from its public Web
site to its social media sites.

Informal Recommendation 8: Embassy Nairobi should implement a plan to reconfigure
embassy space to accommodate an educational adviser.

Informal Recommendation 9: Embassy Nairobi should maintain duplicate copies of basic
grants documents in the office of the grants officer and should establish a procedure whereby the
grants officer approves interim and final reports and examines the full grant file before close out.

Informal Recommendation 10: Embassy Nairobi should require at least one PEPFAR program
officer to obtain a grants warrant.

Informal Recommendation 11: Embassy Nairobi should update the position descriptions of
public affairs section staff members whose duties have expanded.


                                          57
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Nairobi should establish a complete list of the
training that each public diplomacy local staff member has received and when.

Informal Recommendation 13: Embassy Nairobi should establish a regular meeting schedule
in the consular section between the senior locally employed staff from each unit, the consul
general, and the deputy consul general.

Informal Recommendation 14: Embassy Nairobi should direct the consul general and the
deputy consul general to adjudicate standard visa and citizenship cases on a periodic basis.

Informal Recommendation 15: Embassy Nairobi should complete standardizing operational
procedures in the consular section, post these procedures on internal Web sites, and review them
on a regular basis.

Informal Recommendation 16: Embassy Nairobi should establish portfolios for entry-level
consular officers to retain as they rotate among units in the consular section.

Informal Recommendation 17: Embassy Nairobi should request that the Bureau of Consular
Affairs modify or replace the existing high dividers between the cubicles in the consular
workspace.

Informal Recommendation 18: Embassy Nairobi should add privacy wings with sound
baffling to the interview windows in the consular waiting room.

Informal Recommendation 19: Embassy Nairobi should request funding from the Bureau of
Consular Affairs for consular personnel to travel to neighboring embassies for which Nairobi has
consular processing responsibilities.

Informal Recommendation 20: Embassy Nairobi should establish work priorities for the
quality coordinator and processes for the customer service center to provide adequate and
equitable support services for new arrivals.

Informal Recommendation 21: Embassy Nairobi should provide customer service training to
the locally employed staff.

Informal Recommendation 22: Embassy Nairobi should use video or teleconferencing to
allow personnel from the Centers for Disease Control and Prevention in Nairobi and Kisumu to
participate in management meetings.

Informal Recommendation 23: Embassy Nairobi should provide to International Cooperative
Administrative Support Services customers information on the benefits of using ARIBA to track
the status of procurement requests.

Informal Recommendation 24: Embassy Nairobi should reorganize its customs and shipping
unit into functional specialties.

Informal Recommendation 25: Embassy Nairobi should examine its E2 Travel Services
approval chains to be sure that the number and type of approvals are optimal for both internal
controls and operations.
                                               58
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 26: Embassy Nairobi should expedite hiring the three new eligible
family member positions for the facilities management section.

Informal Recommendation 27: Embassy Nairobi should provide U.S. employee supervision of
the janitorial staff.

Informal Recommendation 28: Embassy Nairobi should include the handling of after-hours
calls for emergency maintenance among the duties covered in the embassy duty officer
handbook along with instructions on what constitutes a maintenance emergency and what to do
when called.

Informal Recommendation 29: Embassy Nairobi should designate an eligible family member
coordinator with the experience and authority to coordinate all aspects of the eligible family
member employment program.

Informal Recommendation 30: Embassy Nairobi should implement a process to assess the
employment interests and skill sets of all incoming eligible family members.

Informal Recommendation 31: Embassy Nairobi should, depending on mission needs and
skills available, work with the Department to establish more Eligible Family Member
Professional Associate Program positions.

Informal Recommendation 32: Embassy Nairobi should conduct a full staffing review of all
U.S. direct-hire and locally employed staff positions and implement a succession plan.

Informal Recommendation 33: Embassy Nairobi should reassess economic section staffing
requirements after hiring a professional associate and an additional locally employed staff
member and evaluating workload for 1 year.

Informal Recommendation 34: Embassy Nairobi should tie its professional development
program directly to locally employed staff performance management and evaluations.

Informal Recommendation 35: Embassy Nairobi should begin succession planning for the
financial management section, allowing for double encumbrance of key positions for a period of
training of the successors.

Informal Recommendation 36: Embassy Nairobi should change the personnel structure of the
financial management section to allow U.S. direct-hire employees to exercise supervision of
locally employed staff and should balance the workload in the financial section and delegate
authority and responsibility farther down the management chain.

Informal Recommendation 37: (b) (5)



Informal Recommendation 38: Embassy Nairobi should implement a coordinated set of
procedures between the consular section and the switchboard to improve customer service for
outside callers.

                                        59
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 39: Embassy Nairobi should partition a portion of the community
liaison office into a private office.

Informal Recommendation 40: Embassy Nairobi should assess client needs for health services
and make appropriate changes.

Informal Recommendation 41: Embassy Nairobi should assess the workload of the staff in the
health unit and hire additional administrative personnel, if needed.

Informal Recommendation 42: Embassy Nairobi should plan for a U.S. direct-hire employee
to have a permanent presence at its new warehouse facility.

Informal Recommendation 43: Embassy Nairobi should clearly label representational alcohol
in representational residences.

Informal Recommendation 44: Embassy Nairobi should reconcile representational alcohol
inventories at the chief of mission residence.

Informal Recommendation 45: Embassy Nairobi should provide more U.S. direct-hire
oversight of representational alcohol stocks at the chief of mission residence.




                                       60
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                             Name      Arrival Date
Ambassador                                            Scott Gration            5/11
Deputy Chief of Mission                                Lee Brudvig             9/09
Chiefs of Sections:
  Management                                          Charles Slater          8/10
  Consular                                         Elizabeth Jordan           5/10
  Political                                        Margot Sullivan            8/10
  Economic                                            Eric Whitaker          10/10
  Public Affairs                                       John Haynes            7/09
  Permanent Mission to
  UNEP/UN-HABITAT                                   Joseph Murphy            11/09
  Regional Security                                    Jeff Lischke           9/10
  PEPFAR                                            Katherine Perry          12/10
  Regional Affairs                                   Alan Patterson           7/11
Other Agencies:
  Justice                                             Robin Taylor             1/11
  Customs and Border
  Protection                                       Charles Stemple             2/10
  Citizenship and Immigration
  Services                                             Sonia Gulati            2/10
  Transportation Security
  Administration                                      Bradley Geno            5/10
  Drug Enforcement Agency                                 Scott Linn         12/11
  Treasury                                        Francis Odubekun            8/07
  Federal Bureau of
  Investigation                                     Thomas Relford             6/10
  Foreign Agricultural Service                  Stephen Hammond                8/10
  CDC                                               Robert Breiman             6/10
  Defense Attaché Office                       Col. David McNevin              7/07
  Open Source Center                                   Patrice Ross            7/11
  Military Research Unit                             Thomas Logan              8/10
  Combined Joint Task Force-
  Horn of Africa                                Capt. Keith Warner            2/12
  Peace Corps                                     Steve Wisecarver            9/09
  Library of Congress                     Pamela Howard-Reguindin             9/05
  Foreign Commercial Service                    Camille Richardson            7/10
  USAID/East Africa Region                           Larry Meserve           12/06
  USAID/Kenya                                            Erna Kerst          10/07




                                       61
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CDC             Centers for Disease Control and Prevention

CJTF-HOA        Combined Joint Task Force for the Horn of Africa

Department      U.S. Department of State

EEO             Equal Employment Opportunity

EFM             Eligible family member

FAST            First- and second-tour

GHI             Global Health Initiative

ICASS           International Cooperative Administrative Support Services

LE              Locally employed

MRR             Mission Resource Request

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General

PEPFAR          President’s Emergency Plan for AIDS Relief

S/GAC           Office of the U.S. Global AIDS Coordinator

UNEP            UN Environment Programme

UN-HABITAT      UN Human Settlements Programme

USAID           U.S. Agency for International Development




                            62
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
